<html>
<title> - CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS</title>
<body><pre>[Senate Hearing 109-397]
[From the U.S. Government Printing Office]



                                                  S. Hrg. 109-397, Pt 6
 
             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================


                                HEARINGS

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               ----------                              

               SEPTEMBER 6, 12, 19, AND NOVEMBER 14, 2006

                               ----------                              

                           Serial No. J-109-4

                               ----------                              

                                 PART 6

                               ----------                              

         Printed for the use of the Committee on the Judiciary



                      U.S. GOVERNMENT PRINTING OFFICE
34-698 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                      WEDNESDAY, SEPTEMBER 6, 2006
                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     1
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   178

                               PRESENTERS

Carper, Hon. Thomas R., a U.S. Senator from the State of Delaware 
  presenting Kent A. Jordan, Nominee to be U.S. Circuit Judge for 
  the Third Circuit..............................................     7
Castle, Hon. Michael, a Representative in Congress from the State 
  of Delaware presenting Kent A. Jordan, Nominee to be U.S. 
  Circuit Judge for the Third Circuit............................     6
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio 
  presenting Sara Elizabeth Lioi, Nominee to be U.S. District 
  Judge for the Northern District of Ohio........................    11
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa 
  presenting John Jarvey, Nominee to be U.S. District Judge for 
  the Southern District of Iowa..................................     4
Harkin, Hon. Tom, a U.S. Senator from the State of Iowa 
  presenting John Jarvey, Nominee to be U.S. District Judge for 
  the Southern District of Iowa..................................     5
Martinez, Hon. Mel, a U.S. Senator from the State of Florida 
  presenting Marcia Howard, Nominee to be U.S. District Judge for 
  the Middle District of Florida.................................    10
Voinovich, Hon. George V., a U.S. Senator from the State of Ohio 
  presenting Sara Elizabeth Lioi, Nominee to be U.S. District 
  Judge for the Northern District of Ohio........................     8

                       STATEMENTS OF THE NOMINEES

Howard, Marcia Morales, Nominee to be U.S. District Judge for the 
  Middle District of Florida.....................................    54
    Questionnaire................................................    55
Jarvey, John Alfred, Nominee to be U.S. District Judge for the 
  Southern District of Iowa......................................    88
    Questionnaire................................................    89
Jordan, Kent A., Nominee to be U.S. Circuit Judge for the Third 
  Circuit........................................................    12
    Questionnaire................................................    13
Lioi, Sara Elizabeth, Nominee to be U.S. District Judge for the 
  Northern District of Ohio......................................   114
    Questionnaire................................................   115

                         QUESTIONS AND ANSWERS

Responses of Kent A. Jordan to questions submitted by Senator 
  Leahy..........................................................   160

                       SUBMISSIONS FOR THE RECORD

DeWine, Hon. Mike, a U.S. Senator from the State of Ohio, 
  statement......................................................   167
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  statement......................................................   170
Harkin, Hon. Tom, a U.S. Senator from the State of Iowa, 
  statement......................................................   176
Voinovich, Hon. George V., a U.S. Senator from the State of Ohio, 
  statement......................................................   183

                      TUESDAY, SEPTEMBER 12, 2006
                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma......   185
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................   284
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   334
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania, prepared statement...............................   341

                               PRESENTERS

Chambliss, Hon. Saxby, a U.S. Senator from the State of Georgia 
  presenting Lisa Wood, Nominee to be U.S. District Judge for the 
  Southern District of Georgia...................................   189
Inhofe, Hon. James M., a U.S. Senator from the State of Oklahoma 
  presenting Gregory Frizzell, Nominee to be U.S. District Judge 
  for the Western District of Oklahoma...........................   186
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia 
  presenting Lisa Wood, Nominee to be U.S. District Judge for the 
  Southern District of Georgia...................................   190
Santorum, Hon. Rick, a U.S. Senator from the State of 
  Pennsylvania presenting Nora Fischer, Nominee to be U.S. 
  District Judge for the Western District of Pennsylvania........   188
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania presenting Nora Fischer, Nominee to be U.S. 
  District Judge for the Western District of Pennsylvania........   186

                       STATEMENTS OF THE NOMINEES

Fischer, Nora Barry, Nominee to be U.S. District Judge for the 
  Western District of Pennsylvania...............................   192
    Questionnaire................................................   193
Frizzell, Gregory, Nominee to be U.S. District Judge for the 
  Western District of Oklahoma, prepared statement...............   223
    Questionnaire................................................   224
O'Neill, Lawrence Joseph, Nominee to be U.S. District Judge for 
  the Eastern District of California.............................   256
    Questionnaire................................................   257
Wood, Lisa, Nominee to be U.S. District Judge for the Southern 
  District of Georgia............................................   285
    Questionnaire................................................   286

                       SUBMISSIONS FOR THE RECORD

Boxer, Hon. Barbara, a U.S. Senator from the State of California, 
  prepared statement.............................................   328
Eagan, Claire V., Chief Judge, U.S. District Court, Northern 
  District of Oklahoma, Tulsa, Oklahoma, letter..................   331
Inhofe, Hon. James M., a U.S. Senator from the State of Oklahoma, 
  statement......................................................   332
Sartin, Robert B., Barrow & Grimm, P.C., Attorneys at Law, Tulsa, 
  Oklahoma, letter...............................................   339
Wohlgemuth, Joel L., Attorney at Law, Norman, Wohlgemuth Chandler 
  & Dowdell, Tulsa, Oklahoma, letter.............................   342

                      TUESDAY, SEPTEMBER 19, 2006
                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Brownback, Hon. Sam, a U.S. Senator from the State of Kansas.....   345
Leahy, Hon. Patrick J., a U.S. Senator fromthe State of Vermont, 
  prepared statement.............................................   493

                               PRESENTERS

Cochran, Hon. Thad, a U.S. Senator from the State of Mississippi 
  presenting Leslie Southwick, Nominee to be District Judge for 
  the Southern District of Mississippi...........................   346
Lott, Hon. Trent, a U.S. Senator from the State of Mississippi 
  presenting Leslie Southwick, Nominee to be District Judge for 
  the Southern District of Mississippi...........................   347
Stabenow, Hon. Debbie, a U.S. Senator from the State of Michigan 
  presenting Paul Lewis Maloney, Janet Neff, and Robert Jonker, 
  Nominees to be U.S. District Judges for the Western District of 
  Michigan.......................................................   348

                       STATEMENTS OF THE NOMINEES

Jonker, Robert James, Nominee to be District Judge for the 
  Western District of Michigan...................................   350
    Questionnaire................................................   351
Maloney, Paul Lewis, Nominee to be District Judge for the Western 
  District of Michigan...........................................   377
    Questionnaire................................................   378
Neff, Janet T., Nominee to be District Judge for the Western 
  District of Michigan...........................................   402
    Questionnaire................................................   403
Southwick, Leslie, Nominee to be District Judge for the Southern 
  District of Mississippi........................................   441
    Questionnaire................................................   442

                         QUESTIONS AND ANSWERS

Responses of Robert James Jonker to questions submitted by 
  Senator Leahy..................................................   483
Responses of Robert James Jonker to questions submitted by 
  Senator Kennedy................................................   488

                       SUBMISSIONS FOR THE RECORD

Levin, Hon. Carl, a U.S. Senator from the State of Michigan, 
  prepared statement.............................................   492
Lott, Hon. Trent, a U.S. Senator from the State of Mississippi, 
  prepared statement.............................................   498

                       TUESDAY, NOVEMBER 14, 2006
                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick, a U.S. Senator from the State Vermont, 
  prepared statement.............................................   565
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................   501

                               PRESENTER

Santorum, Hon. Rick, a U.S. Senator from the State of 
  Pennsylvania presenting Thomas Hardiman, Nominee to be U.S. 
  Circuit Judge for the Third Circuit............................   502

                        STATEMENT OF THE NOMINEE

Hardiman, Thomas Michael, Nominee to be U.S. Circuit Judge for 
  the Third Circuit..............................................   503
    Questionnaire................................................   504

                         QUESTIONS AND ANSWERS

Responses of Thomas M. Hardiman to questions submitted by 
  Senators Leahy and Feingold....................................   557
                              ----------                              

                     ALPHABETICAL LIST OF NOMINEES

Fischer, Nora Barry, Nominee to be U.S. District Judge for the 
  Western District of Pennsylvania...............................   192
Frizzell, Gregory, Nominee to be U.S. Distrct Judge for the 
  Western District of Oklahoma...................................   223
Hardiman, Thomas Michael, Nominee to be U.S. Circuit Judge for 
  the Third Circuit..............................................   503
Howard, Marcia Morales, Nominee to be U.S. District Judge for the 
  Middle District of Florida.....................................    54
Jarvey, John Alfred, Nominee to be U.S. District Judge for the 
  Southern District of Iowa......................................    88
Jonker, Robert James, Nominee to be District Judge for the 
  Western District of Michigan...................................   350
Jordan, Kent A., Nominee to be U.S. Circuit Judge for the Third 
  Circuit........................................................    12
Lioi, Sara Elizabeth, Nominee to be U.S. District Judge for the 
  Northern District of Ohio......................................   114
Maloney, Paul Lewis, Nominee to be District Judge for the Western 
  District of Michigan...........................................   377
Neff, Janet T., Nominee to be District Judge for the Western 
  District of Michigan...........................................   402
O'Neill, Lawrence Joseph, Nominee to be U.S. District Judge for 
  the Eastern District of California.............................   256
Southwick, Leslie, Nominee to be District Judge for the Southern 
  District of Mississippi........................................   441
Wood, Lisa, Nominee to be U.S. District Judge for the Southern 
  District of Georgia............................................   285


NOMINATION OF KENT A. JORDAN, NOMINEE TO BE CIRCUIT JUDGE FOR THE THIRD 
 CIRCUIT; MARCIA MORALES HOWARD, NOMINEE TO BE DISTRICT JUDGE FOR THE 
MIDDLE DISTRICT OF FLORIDA; JOHN ALFRED JARVEY, NOMINEE TO BE DISTRICT 
   JUDGE FOR THE SOUTHERN DISTRICT OF IOWA; AND SARA ELIZABETH LIOI, 
     NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF OHIO

                              ----------                              


                      WEDNESDAY, SEPTEMBER 6, 2006

                              United States Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 2:12 p.m., in 
room 226, Dirksen Senate Office Building, Hon. Mike DeWine 
presiding.
    Present: Senator Biden.

OPENING STATEMENT OF HON. MIKE DEWINE, A U.S. SENATOR FROM THE 
                         STATE OF OHIO

    Senator DeWine. The committee will come to order.
    Today we will have a confirmation hearing for four of the 
President's judicial nominees, one nominee for the Court of 
Appeals and three District Court nominees.
    We appreciate everyone's willingness to appear before the 
committee today. I am particularly glad to see Judge Lioi, a 
fellow Ohioan here with us today, and we welcome her.
    I believe that today's hearing will show that all of our 
nominees are well qualified for their respective positions and 
that we will then be able to move all of the nominations 
quickly to the Judicial Committee for action.
    At this point let me turn to Senator Biden for any comments 
that he would like to make.
    [The prepared statement of Senator DeWine appears as a 
submission for the record.]

STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Biden. Mr. Chairman, thank you for convening this 
hearing and allowing me, first of all, to welcome all the 
nominees. I think your assessment of their qualifications is 
correct, and I look forward to hearing the testimony.
    But I would also like to welcome to the committee my two 
Delaware colleagues, Senator Carper and Congressman Castle, who 
is twice as powerful as us. He is the only Representative in 
the State, and so he represents all the State; Tom and I split 
it up.
    [Laughter].
    But I am glad my colleagues are here.
    I am also pleased to play a dual role today of not only 
serving as the Ranking Member for this hearing--by the way, 
this is the closest I have gotten to the Chairman's seat in 
about 10 years, after sitting here 17 years. Thanks for letting 
me have this shot.
    Senator DeWine. It is nice to be in it, actually.
    Senator Biden. That is right.
    [Laughter].
    But I have the honor of introducing a really fine 
Delawarean, Judge Kent Jordan, who has been nominated by the 
President to sit on the Third Circuit Court of Appeals.
    But before I talk about the Judge, allow me to say a few 
words about the Judge whom Judge Jordan has been nominated to 
replace. This spring, Judge Jane Roth, our former colleague 
Bill Roth's wife, informed the President that she would be 
seeking senior status.
    I would like to publicly acknowledge what a great judge 
Judge Roth has been, her service to this country, her 
dedication to the rule of law, and her stellar representation 
on the Third Circuit Court of Appeals.
    I am sure every Senator believes their circuit is the most 
vaunted and honorable of them all, but we have a great, great 
history in the Third Circuit and some truly nationally renowned 
Judges, as other circuits do as well. Jane Roth fit the 
Delaware seat marvelously.
    I have known Jane for many years, as both my colleagues 
have, and I look forward to her continuing her brilliant career 
as a senior Justice.
    By being nominated to fill Judge Roth's seat, Kent Jordan 
has a very significant space to fill. I am confident, based on 
his conduct at the District Court level and all those in both 
political parties who have recommended him highly, that he will 
do exactly that.
    It is almost exactly four years to the day that I 
introduced Kent Jordan to this committee to be District Court 
Judge, and he has performed by every measure with flying 
colors.
    During his 22-year legal career, Judge Jordan has excelled 
at every step of the way. He started his legal career as a law 
clerk for one of the most respected Judges ever to serve on the 
Federal bench in our State, again known to both my colleagues, 
Judge James Latchum, who served on the very bench on which the 
Judge now serves.
    Kent went on to serve as Assistant U.S. Attorney in 
Delaware for five years, and at the time he worked on some 
highly publicized cases, bringing some very bad people to 
justice, and also administering justice with an even hand.
    He moved on to become a partner in one of Delaware's top 
law firms, Morris, James, Hitchens & Williams, working there 
for five years. Then Kent became General Counsel to a 102-year-
old corporation services company known as CSC, as it is known 
nationally as one of the leading incorporation service 
companies in the world.
    For the past four years he has served with distinction on 
the District Court. As I said, he has drawn praise from his 
colleagues on the District Court, from the lawyers who have 
appeared before him, and from his soon-to-be colleagues on this 
Third Circuit Court of Appeals.
    His colleagues describe him in many ways, but the 
adjectives that always come up are ``bright'', ``hardworking'', 
``deep sense of integrity'', ``intellectual honesty''. I do not 
know what else you could ask for a Judge. I must tell you, I 
have become convinced he is open-minded, collegial, and most of 
all, fair.
    He is accompanied today by his wife, Michelle. Michelle, I 
did not warn you of this, and I do not want to embarrass you. 
Would you please stand up and let folks see you here? This is 
all the more reason why we should confirm Kent Jordan.
    Kent and Michelle have six children, and I will let him do 
the introductions of that, that range from ages 11 to 24. On my 
mother's side--I realize Kent is LDS and I am an Irish 
Catholic. But if my mother were here, Kent, she would say, ``no 
purgatory for you. Straight to heaven.''
    [Laughter].
    Six kids, 11 to 24. Their youngest are here. Three of the 
youngest are here today, and I will ask Kent, when it comes his 
time, to introduce them as well.
    So, Mr. Chairman, I thank you again. I am anxious to hear 
from the witnesses. I know Senator Grassley has to leave very 
shortly, and I know Congressman Castle as well has to manage a 
bill in the House. But I want to welcome the Jordans, and I 
thank you for the time.
    Senator DeWine. Senator, thank you very much. I will have 
to tell my wife about that purgatory issue. With eight kids, I 
have to.
    Senator Biden. She is in it right now and she does not know 
it.
    [Laughter].
    Senator DeWine. I will have to think about that, Senator, a 
little bit. That is good.
    Senator Grassley, we will start with you. I must say, 
Senator Grassley, before we let you start, I have to put a 
little plug in here for Ohio about Judge Jarvey.
    Although he is nominated for a position from Iowa, I would 
be remiss in my obligation as Senator from Ohio to mention that 
the Honorable Judge received his B.S. degree from Akron in 
1978. So, I will put that little plug in there.
    Senator Grassley. You do not get on the bench with a B.S., 
so remember his J.D. from Drake Law School.
    Senator DeWine. I understand that.
    [Laughter].
    I understand that. We have got a good start, though.
    You are up, Senator.

  PRESENTATION OF JOHN ALFRED JARVEY, NOMINEE TO BE DISTRICT 
  JUDGE FOR THE SOUTHERN DISTRICT OF IOWA, BY HON. CHARLES E. 
        GRASSLEY, A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. You have made my speech. It is a pleasure 
today to introduce to the committee a distinguished Iowan who 
has been nominated to the Federal bench. Judge John Alfred 
Jarvey, from Cedar Rapids, Iowa, will serve as District Judge 
for the Southern District. He is an extremely qualified 
individual and I am proud to be here to support this nomination 
and introduce him to the committee.
    Judge Jarvey was born in Minneapolis. He is married to 
Mary, who is an instructor of piano. Judge Jarvey graduated, as 
you said, from the University of Akron in 1978 with a degree in 
Accounting, and then received his J.D. degree from Drake 
University in 1981.
    He clerked for two years for Judge Donald O'Brien of the 
Northern District of Iowa. In 1983, he joined the Justice's 
Criminal Division as a trial attorney, where he prosecuted 
drug, tax evasion, money laundering, and firearms, and he 
happened to specialize in prosecuting medical professionals 
involved in pharmaceutical drug diversion.
    Since 1987, Judge Jarvey has been Chief Magistrate Judge 
for the Northern District of Iowa. In this position, Judge 
Jarvey has presided over a wide range of criminal and civil 
cases, such as cases involving personal injury, employment 
discrimination, and other employees' rights, as well as 
patents, copyrights, and commercial disputes that are complex.
    In addition, since 1993, Judge Jarvey has been a trial 
advocacy instructor at the University of Iowa Law School. Judge 
Jarvey enjoys tremendous support from his peers. I received 
many letters praising Judge Jarvey's judicial temperament, 
courteousness to all litigants, respect for, and commitment to, 
our judicial system, and favorable comments about Judge 
Jarvey's ethics and abilities as an administrator, and 
complimentary statements about Judge Jarvey's intelligence, 
command of the law, and rules of evidence, fairness, and 
respectful judicial demeanor in court.
    I just want to quote from a couple, but I have got a longer 
statement I am going to put in the record. From one attorney, 
``Judge Jarvey's decisions are thoughtful and well-reasoned. He 
clearly is guided by the rule of law and does not legislate 
from the bench.''
    Another one: ``What is clear to me from my experience with 
Magistrate Jarvey is that he is, first and foremost, an 
exceptional legal mind. His ability to grasp complicated and 
dense fact patterns in a clear and concise manner is well known 
and respected in our district. He issues decisions which are 
well-reasoned and in harmony with the law of our 
jurisdiction.'' That is the end of that quote, but there are 
others that will be submitted.
    Judge Jarvey has had a distinguished legal career and shown 
tremendous dedication to public service. He will be a 
tremendous asset to the District Court of the Southern District 
of my State.
    As I noted, so many people agree that Judge Jarvey is a 
talented individual that deserves to be a Federal Judge and he 
brings with him the ABA unanimously giving him the rating of 
``Well Qualified''.
    I am confident that Judge Jarvey possess the skill, 
integrity, commitment, intellect, and temperament that we all 
look for in good Judges, so it is with great respect and 
admiration that I recommend this highly qualified individual to 
the Judiciary Committee for favorable consideration and hope we 
can get him approved before we adjourn.
    Senator DeWine. Senator Grassley, thank you very much.
    Senator Grassley. Thank you.
    Senator DeWine. Senator Harkin?

  PRESENTATION OF JOHN ALFRED JARVEY, NOMINEE TO BE DISTRICT 
JUDGE FOR THE SOUTHERN DISTRICT OF IOWA, BY HON. TOM HARKIN, A 
              U.S. SENATOR FROM THE STATE OF IOWA

    Senator Harkin. Thank you very much, Mr. Chairman. I join 
with my colleague, Senator Grassley, to give my unqualified 
support to John Jarvey to be a Federal District Judge for the 
Southern District of Iowa.
    As Senator Grassley said, John is currently a Magistrate 
Judge in the Northern District, a position he has had for 18 
years.
    I had a chance to meet with him, not for the first time, 
last month in Iowa when we were out for our August break. And 
Mr. Chairman and members of the committee, I can tell you that, 
after 18 years, I believe it is time for a promotion.
    John Jarvey started his legal career as a clerk to Federal 
Judge Donald O'Brien, as Senator Grassley said, an excellent 
training ground for a future Federal Judge. In his years as a 
Magistrate, he has developed an excellent reputation as a fair-
minded Judge with a devotion to the law and as a strong 
believer in judicial independence.
    Based on the calls and letters received by my offices 
throughout Iowa, he has earned respect and admiration across 
the board. In fact, the Chief Judge of the Southern District, 
the Honorable Robert Pratt, and the Clerk of the Southern 
District, Marjorie Krahn, are with us today to demonstrate 
their support also.
    In his years as a Magistrate, John Jarvey has devoted a 
tremendous amount of time and energy to successful mediations, 
including a very difficult tribal dispute in Iowa. He also 
regularly teaches the trial skills he developed as a Federal 
prosecutor to students at Drake University and the University 
of Iowa Law Schools.
    As anyone who has spoken for more than a few minutes to 
John Jarvey knows, he is also a committed husband and father.
    In selecting John Jarvey to be a Federal District Judge I 
believe the President has made a very good choice, and I look 
forward to his speedy confirmation.
    Thank you very much, Mr. Chairman.
    Senator DeWine. Senator, thank you very much.
    Representative Castle?

PRESENTATION OF KENT A. JORDAN, NOMINEE TO BE CIRCUIT JUDGE FOR 
THE THIRD CIRCUIT, BY HON. MICHAEL CASTLE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF DELAWARE

    Representative Castle. Thank you, Senator. I am also 
pleased to be here to support Kent Jordan. I guess it is a 
little bit unusual that you would have the entire delegation 
from one State supporting a person when there is three of us. 
It is easy when we all know the person and think so highly of 
him. It is even simpler, perhaps, than that.
    Delaware, of course, is a small State, but for those who 
know anything about the law, it is a State which has a very 
highly-developed legal community and judicial community because 
of the incorporation statutes, and other reasons why Delaware 
is a central place for people to come.
    As a matter of fact, the Chamber of Commerce ranked 
Delaware's Judges the highest in all five categories they 
looked at across the entire United States of America.
    Kent Jordan came to the Delaware District Court and has 
just done a wonderful job there. I followed this carefully 
because I was involved in the initial selection process when he 
was nominated.
    I can tell you, as one who practiced law in front of a lot 
of these Judges, very few do it as well as Kent has done it. He 
runs on time. He makes his decisions in a precise way. He has 
reduced the workload of that court for the other Judges. He has 
just done a great job--even a sensational job--on our District 
Court, so we are pleased that he has been nominated for the 
Third Circuit Court of Appeals.
    He did receive the unanimous vote of the Senate when he 
went before you for the District Court, and we hope it can be 
the same, and obviously swiftly, if possible, for the Third 
Circuit Court of Appeals.
    He, as Senator Biden has already indicated, was one of the 
top prosecutors and litigators in Delaware, and even has some 
corporation background, which is helpful as well. He is filling 
big shoes.
    Again, typical of Delaware, I guess I have known Jane Roth 
all my life. I guess she sort of knew me before I could know 
her, because she was a friend of my older sister's, kind of 
thing.
    She was a wonderful Judge, too, and we are sorry to see her 
move on to senior status, but we are delighted that we have 
somebody of Kent's ability to do this. All the things that one 
would look for in a Judge, patience, intelligence, experience, 
are there. The ``Well Qualified'' rating unanimously by the Bar 
Association, which we all look for is there.
    In the case of Delaware, on the Third Circuit, we only have 
2 of the 14 places and we have a wonderful Judge there, Judge 
Tom Ambrow, on that court now. But New Jersey, Pennsylvania, 
and the Virgin Islands--I have always wondered why the Virgin 
Islands was lumped with that, but it is probably a nice place 
to go on the circuit every now and then--serve that particular 
area, and we want the best Judges we can get from Delaware.
    In my judgment, we have picked one of the best Judges you 
could find in the United States of America. So, we are looking 
forward to supporting Kent in every way we can.
    He has a large family, most of which is here, his lovely 
wife and three of the kids, and many, many other supporters. 
When you are in a small State like ours, Senator, you hear a 
lot about people. You usually get to have a pretty good idea of 
who they are.
    I have never heard a disparaging or discouraging word about 
Kent and the wonderful job he is doing in our District Court. 
So, I recommend him heartily to all of you here in the United 
States Senate.
    If I may be excused at some point, I have got to manage a 
bill over on the floor of the House and I have to run.
    Senator DeWine. We understand.
    Representative Castle. But I thank you so much for the 
opportunity of being able to speak on behalf of Kent. I 
appreciate it.
    Senator DeWine. Thank you, Congressman. Thank you very 
much.
    Senator Carper?

PRESENTATION OF KENT A. JORDAN, NOMINEE TO BE CIRCUIT JUDGE FOR 
  THE THIRD CIRCUIT, BY HON. THOMAS R. CARPER, A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Senator Carper. Thanks very much. I have a sense of deja vu 
here. What was it, four years ago?
    Senator DeWine. Another Ohio State graduate here.
    Senator Carper. There we go. OH. OH. It was not that long 
ago, I think four years ago, that a number of us were here for 
a similar hearing when Judge Jordan was nominated to be a 
District Judge.
    At the time I think the children were a little bit younger, 
and I know there are three of them here that look a little bit 
bigger. I told them they have done a good job in raising their 
dad, and they all agreed that he turned out pretty well.
    As stated by my colleague Joe Biden and our colleague Mike 
Castle, Delaware is a little State and you know one another. If 
there are good things to say about a person, you hear those. If 
there are not such good things to say about someone, you hear 
those as well. In the time that I have known Kent Jordan, in 
the time that he has been in public life, we only hear good 
things about him.
    When I appeared before this committee with our Senator and 
our Congressman four years ago, I indicated when I used to be a 
governor, like Governor Voinovich over here, I used to have the 
opportunity to nominate people to serve on the bench.
    There was a litmus test of sorts that I used in nominating 
people. I always looked for people who were bright, I looked 
for people who knew the law. I looked for folks who had good 
judicial temperament, who treated people in the courtroom on 
either side with equal respect and made them feel welcome and 
listened to.
    I looked for people who had good judgment, not only who had 
good judgment, but were also able to make a decision. You do 
not always find that in everybody who serves as a Judge.
    I looked for folks who were hard workers. You never wanted 
to nominate anybody to the bench who was going to get on the 
bench and, frankly, not work very hard. Kent Jordan meets that 
litmus test to a ``T''.
    I am proud that we were able to support his nomination four 
years ago. I think it speaks volumes that the entire delegation 
is here on his behalf, voicing our support of him and our 
approval.
    I want to say to his children, half of whom are here, and 
to his wife Michelle, thank you very, very much for sharing 
with us a good father and a good husband to serve the people, 
not just in our State, but of our country.
    As we think about the Third Circuit Court of Appeals, we 
lost some real good people from the Third Circuit. One has gone 
on to be a Cabinet Secretary, one has gone on to be a Supreme 
Court Justice, and one has just gone to the end of his life, Ed 
Becker, who is one of the finest people I have ever had the 
privilege of knowing and working with.
    Now Judge Roth moves to senior status, and she will 
obviously be active and involved. Of all the people I have ever 
known on the bench, Federal or State, she was in many ways the 
epitome of what a Judge should be about.
    She was all the things I just mentioned. In addition to 
that, she is someone who has a sparkling sense of humor and 
someone with whom it is just great to spend a little bit of 
time.
    Speaking of her, my hope is that by the end of this year we 
will have the opportunity in our State, as Senator Biden and 
Congressman Castle know, of actually naming the most beautiful 
bridge in our State over the Chesapeake and Delaware Canal, a 
bridge built in large part because of the hard work of Bill 
Roth, after Judge Roth's husband, the late Senator Bill Roth.
    I am pleased to be here to support Judge Jordan's 
nomination and elevation to the Third Circuit Court of Appeals, 
and my hope is that he will be confirmed. Thank you so much.
    Senator DeWine. Senator Voinovich?

  PRESENTATION OF SARA ELIZABETH LIOI, NOMINEE TO BE DISTRICT 
  JUDGE FOR THE NORTHERN DISTRICT OF OHIO, BY HON. GEORGE V. 
        VOINOVICH, A U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman. It is a 
pleasure for me to be here today and to speak on behalf of a 
very deserving person from the State of Ohio, and I am here to 
express my strong support for Judge Sara Lioi.
    I feel kind of good about it, because I appointed Judge 
Lioi to the Court of Common Pleas back when I was governor of 
Ohio in 1997, and after that she was elected to retain her 
seat, then was elected to a six-year term. It is kind of 
satisfying to me today to know that the President has nominated 
her for a Federal Judgeship.
    I welcome the committee's review of Judge Lioi. I believe 
that you will come to the same conclusion that I have, that she 
is well qualified to serve as a Federal District Court Judge, 
and should be confirmed by the Senate.
    She has a distinguished and impressive record as an 
attorney in private practice, as a Ohio Court of Common Pleas 
Judge, as I mentioned, a community leader, and she has deep 
roots in Stark County, Ohio.
    She is a native of that county and the youngest of seven 
children. Judge Lioi graduated from GlenOak High School and 
from Bowling Green State University, where she graduated summa 
cum laude and earned the distinction of Phi Beta Kappa, she was 
an outstanding student.
    She went on to attend my law school and alma mater, the 
Moritz College of Law at the Ohio State University, receiving 
her law degree in 1987. After graduating from law school, Judge 
Lioi joined the law firm of Day Kidder, the oldest law firm in 
Stark County, as an associate.
    She was later recognized by her colleagues when they 
elected her to the firm's partnership in 1993. As an attorney, 
she represented individuals, schools, and other institutions of 
higher learning, cities, small business, and multinational 
corporations. While in private practice, she represented 
clients at both the trial and appellate levels.
    Since ascending to the bench, Judge Lioi has disposed of 
over 9,500 cases and conducted over 350 trials, over 335 of 
which were jury trials. In sum, she has broad courtroom 
experience, both on and off the bench. This extensive 
experience will serve her well as a Federal trial court Judge.
    She has also earned the respect of her colleagues and 
fellow attorneys. During her time as a practicing attorney she 
served on the Supreme Court of Ohio's Board of Commissioners on 
Grievances and Discipline, and for over 10 years she has served 
on the Supreme Court of Ohio's Board of Commissioners on 
Character and Fitness, including the last five years as 
chairman of that commission. I believe her service on these 
commissions evidences the high esteem and the high character in 
which members hold her in terms of her background.
    Her legal credentials are not the only reasons I support 
her. Today, too many people do not take the time to become 
involved in their communities. However, the Judge Lioi 
participates actively in a number of civic organizations.
    A graduate of Leadership Stark County, she has remained 
active with that program and serves on the boards of several 
nonprofit community agencies, including community services of 
Stark County, Stark County Humane Society, the Walsh University 
Advisory Board, and the Plain Local Schools Foundation.
    I believe that one's involvement in a community is 
important. We need Federal judges not only that have 
exceptional legal skills, but also recognize how the law 
impacts individuals and communities. I believe she has this 
understanding because she works in a community every day.
    As a result of her fine academic and professional 
achievements, I am not surprised that the American Bar 
Association found her unanimously ``Well Qualified'' to serve 
as a Federal District Court Judge.
    In reviewing her academic and professional record, it is 
clear that she is well qualified to serve as a Judge on the 
U.S. District Court for the Northern District of Ohio, and 
there is nobody in this room that knows more about the fact 
that she is well qualified than the Chairman of this committee, 
Senator DeWine, who has spent a great deal of time with the 
Judge.
    I am very happy to be here today to speak on her behalf and 
to second the good work that our Senator from Ohio has done in 
this case.
    Senator DeWine. Senator, thank you very much.
    Senator Martinez?

 PRESENTATION OF MARCIA MORALES HOWARD, NOMINEE TO BE DISTRICT 
JUDGE FOR THE MIDDLE DISTRICT OF FLORIDA, BY HON. MEL MARTINEZ, 
            A U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Martinez. Mr. Chairman, thank you very much, 
Senator Biden. I wanted to be here today to introduce to the 
committee a Floridian, a friend, Magistrate Judge Marcia 
Morales Howard.
    Judge Howard appears before the committee today for a 
discussion of her nomination to serve on the Middle District of 
Florida, and I appreciate the opportunity to be here to speak 
on her behalf.
    I am very proud of the fact that Judge Howard was 
recommended by the Florida Judicial Nominating Commission, 
which Senator Nelson and I have empaneled, which ensures that 
Florida has a nonpartisan judicial nominating process and 
allows us to move candidates forward in a timely manner with 
nominations for important Federal Judgeships, such as this one.
    I particularly take seriously an appointment to this court. 
I practiced for many years before the Middle District of 
Florida and always held in high esteem the members of the bench 
before whom I practiced, all of whom I thought were excellent 
Judges with the right judicial temperament and wisdom, as well 
as integrity.
    Judge Howard has a Bachelor of Science degree in Economics 
from Vanderbilt University, and she graduated with Honors from 
the University of Florida College of Law. She then went on to 
become an accomplished litigator for 13 years in Jacksonville, 
Florida, practicing insurance defense, labor, and employment 
law, and commercial personal injury litigation for two very 
fine law firms, Foley Lardner and McGuire Woods.
    During her litigation career, Judge Howard also gave of her 
time to public service, being appointed by Governor Bush to 
serve on the Jacksonville Board of Transportation Authority 
from 1999 to 2003, and also being appointed by the mayor of 
Jacksonville to serve on Jacksonville's Human Rights 
Commission.
    In 2003, she was appointed to serve as a Magistrate Judge 
for the Middle District of Florida. Judge Howard, therefore, 
knows the Judges and the operation of the Middle District. As a 
Magistrate Judge, she has been responsible for adjudicating 
criminal cases, Social Security appeals, and resolving non-
dispositive matters in civil cases.
    Judge Howard is an experienced Judge with a modest judicial 
philosophy who understands the supreme importance of judicial 
independence and the impartial role a Judge plays in our 
justice system.
    I believe she will be an outstanding Judge for the Middle 
District of Florida, a person that I believe to be extremely 
well qualified, and I am delighted to have an opportunity to be 
here today and recommend her to the committee.
    I know she will add very needed diversity to this Middle 
District of Florida. We have in Florida a very diverse State, 
and I think her appointment will only enhance the people's 
confidence in the judiciary and the process by which we select 
our Judges.
    So, I thank you for allowing me an opportunity to present 
this very outstanding candidate.

  PRESENTATION OF SARA ELIZABETH LIOI, NOMINEE TO BE DISTRICT 
JUDGE FOR THE NORTHERN DISTRICT OF OHIO, BY HON. MIKE DEWINE, A 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator DeWine. Senator, thank you very much. We will thank 
our panel very much.
    Before I bring up our nominees, I would like, as a Senator 
from Ohio, to say a few words about Judge Sara Lioi from Ohio.
    I will not give my entire statement. Senator Voinovich has 
covered a great deal of Judge Lioi's background, and I would 
just like unanimous consent at this point to make my entire 
statement a part of the record, and it will be so made a part 
of the record.
    Just adding a few comments, it should not surprise anyone 
that those who know Judge Lioi best regard her with tremendous 
respect and admiration. Senator Voinovich and I, when we were 
searching for an individual to take this position to make the 
recommendation to the President of the United States, spent 
considerable time talking to lawyers in the Northern District.
    It came back unanimous, frankly, about her, her traits. She 
was described in glowing terms as bright, conscientious, fair, 
impartial, ethical. She is known as a Judge who treats everyone 
who appears before her courteously and with great respect. She 
has the sort of judicial temperament that we hope for and 
really expect from all our Judges.
    Not surprisingly, the ABA has given her, as Senator 
Voinovich said, a unanimous rating of ``Well Qualified'', which 
of course is the highest rating that they can give.
    For all these reasons, Judge Lioi is well suited to be a 
Federal Judge. She has the character, she has the intelligence 
you want to see in a Federal Judge.
    The other attribute that anyone who knows her will 
attribute to her, is how hard-working she is. She gets in 
early, she stays very, very late, and she is extremely 
dedicated. She understands the role of a Judge in our system of 
government.
    She is known by those who work with her as an excellent 
Judge. And just as important, she is the kind of person whom we 
can trust with the great responsibilities that come with being 
a Judge.
    So Senator Voinovich and I are proud to recommend her 
nomination as the United States District Court Judge of the 
Northern District of Ohio the President, and I am gratified 
that President Bush has nominated her for that position. I 
believe that she will serve very ably as a Federal Judge for 
the people of the State of Ohio.
    I would now ask that our nominees come forward to be sworn 
at this time. If all four nominees could come forward. Please 
remain standing. If you all would raise your right hand.
    [Whereupon, the nominees were duly sworn.]
    Senator DeWine. Please take your seat.
    We welcome all of you today. Each one of you will be able 
to make a statement if you wish. We would also ask you to 
introduce any members of your family or friends that you have 
with us.
    We will start with you, Judge Jordan.

 STATEMENT OF KENT A. JORDAN, NOMINEE TO BE CIRCUIT JUDGE FOR 
                       THE THIRD CIRCUIT

    Judge Jordan. Thank you very much, Senator DeWine. It is an 
honor and privilege to be here. I appreciate having this 
opportunity to speak to you. I want to thank you, Senator 
DeWine, for chairing this hearing.
    I express my sincere gratitude to Senator Biden, to Senator 
Carper, and to Congressman Castle for taking time out of what I 
know are intensely busy schedules to be here and speak so 
kindly on my behalf.
    I am grateful to have members of my family with me today, 
my wife Michelle, and three of my sons: Clinton, who is known 
by one and all as ``Bubba,'' 16 years old; 14-year-old K.C.; 
and, as Jesse is quick to note, almost 12-year-old Jesse.
    My three older children are out west at school or serving 
in the mission field. I miss Bethany and Nate, but I know they 
are pulling for me where they are, as is Bethany's husband, 
Thane, and my folks.
    I am very fortunate to have good friends with me here as 
well: my secretary for many years, Cheryl Stein, and my co-
clerk when I was clerking at the District Court, Kevin Brady, 
is here with me, as well as several of my current and former 
law clerks, if I could be permitted to just mention their 
names. Here today is Matt Person, Susan Coletti, Rob 
Weinschenk, Jason Nance, and Bart Kirstinbluth are all here to 
support me, and I appreciate that extended clerk family.
    I would like to say a quick thank-you and note my 
appreciation as well for the mentoring I received over the 
years from Judge Roth, who people have spoken about here 
already today. She is a wonderful Judge, a great friend, and it 
is a real honor to be considered for the seat that she has 
filled with such great dignity and so very well these many 
years.
    [The biographical information of Kent Jordan follows:] 
    [GRAPHIC] [TIFF OMITTED] 34698.001
    
    [GRAPHIC] [TIFF OMITTED] 34698.002
    
    [GRAPHIC] [TIFF OMITTED] 34698.003
    
    [GRAPHIC] [TIFF OMITTED] 34698.004
    
    [GRAPHIC] [TIFF OMITTED] 34698.005
    
    [GRAPHIC] [TIFF OMITTED] 34698.006
    
    [GRAPHIC] [TIFF OMITTED] 34698.007
    
    [GRAPHIC] [TIFF OMITTED] 34698.008
    
    [GRAPHIC] [TIFF OMITTED] 34698.009
    
    [GRAPHIC] [TIFF OMITTED] 34698.010
    
    [GRAPHIC] [TIFF OMITTED] 34698.011
    
    [GRAPHIC] [TIFF OMITTED] 34698.012
    
    [GRAPHIC] [TIFF OMITTED] 34698.013
    
    [GRAPHIC] [TIFF OMITTED] 34698.014
    
    [GRAPHIC] [TIFF OMITTED] 34698.015
    
    [GRAPHIC] [TIFF OMITTED] 34698.016
    
    [GRAPHIC] [TIFF OMITTED] 34698.017
    
    [GRAPHIC] [TIFF OMITTED] 34698.018
    
    [GRAPHIC] [TIFF OMITTED] 34698.019
    
    [GRAPHIC] [TIFF OMITTED] 34698.020
    
    [GRAPHIC] [TIFF OMITTED] 34698.021
    
    [GRAPHIC] [TIFF OMITTED] 34698.022
    
    [GRAPHIC] [TIFF OMITTED] 34698.023
    
    [GRAPHIC] [TIFF OMITTED] 34698.024
    
    [GRAPHIC] [TIFF OMITTED] 34698.025
    
    [GRAPHIC] [TIFF OMITTED] 34698.026
    
    [GRAPHIC] [TIFF OMITTED] 34698.027
    
    [GRAPHIC] [TIFF OMITTED] 34698.028
    
    [GRAPHIC] [TIFF OMITTED] 34698.029
    
    [GRAPHIC] [TIFF OMITTED] 34698.030
    
    [GRAPHIC] [TIFF OMITTED] 34698.031
    
    [GRAPHIC] [TIFF OMITTED] 34698.032
    
    [GRAPHIC] [TIFF OMITTED] 34698.033
    
    [GRAPHIC] [TIFF OMITTED] 34698.034
    
    [GRAPHIC] [TIFF OMITTED] 34698.035
    
    [GRAPHIC] [TIFF OMITTED] 34698.036
    
    [GRAPHIC] [TIFF OMITTED] 34698.037
    
    [GRAPHIC] [TIFF OMITTED] 34698.038
    
    [GRAPHIC] [TIFF OMITTED] 34698.039
    
    [GRAPHIC] [TIFF OMITTED] 34698.040
    
    [GRAPHIC] [TIFF OMITTED] 34698.041
    
    Senator DeWine. Judge, thank you very much.
    Judge Howard?

  STATEMENT OF MARCIA MORALES HOWARD, NOMINEE TO BE DISTRICT 
            JUDGE FOR THE MIDDLE DISTRICT OF FLORIDA

    Judge Howard. Thank you, Mr. Chairman. I want to thank all 
of the members of the committee for giving me the opportunity 
to appear before you here today.
    I am very grateful to Senator Martinez for his time and for 
that most gracious introduction that he gave. I am also 
grateful for the support that both he and Senator Nelson have 
given me through this process.
    I want to express my gratitude to the President for 
nominating me and giving me the opportunity to continue, or 
potentially to continue, in public service.
    I do not have an opening statement, but I would be honored 
to introduce my family who are here with me today, and some 
friends.
    My husband is here with me, Laurence Howard, and my two 
children, Amanda Howard, who is nine, and Webb Howard, who is 
six. I confess, when I looked back earlier, he was not awake.
    [Laughter].
    Senator DeWine. I am sure that was not a commentary on 
Senator Biden or the Chairman.
    [Laughter].
    Judge Howard. I think it had to do with getting up too 
early to make the flight.
    Senator DeWine. I am sure.
    Judge Howard. My parents, Marcia and Ricardo Morales are 
here. I will not share their ages. My sister, Rosa Maria 
Morales King and my sweet nephew Gray King are here. My 
brother, Ricardo Morales is here.
    I am also very fortunate to have two dear friends with me, 
Jodi Wiles, who has worked with me both when I was in private 
practice and has served as my judicial assistant and courtroom 
deputy, and my dear friend Mary Summerville Welch. I am 
grateful to them for joining me, and I am privileged to answer 
any questions that you may have.
    [The biographical information of Marcia Howard follows:]
    [GRAPHIC] [TIFF OMITTED] 34698.042
    
    [GRAPHIC] [TIFF OMITTED] 34698.043
    
    [GRAPHIC] [TIFF OMITTED] 34698.044
    
    [GRAPHIC] [TIFF OMITTED] 34698.045
    
    [GRAPHIC] [TIFF OMITTED] 34698.046
    
    [GRAPHIC] [TIFF OMITTED] 34698.047
    
    [GRAPHIC] [TIFF OMITTED] 34698.048
    
    [GRAPHIC] [TIFF OMITTED] 34698.049
    
    [GRAPHIC] [TIFF OMITTED] 34698.050
    
    [GRAPHIC] [TIFF OMITTED] 34698.051
    
    [GRAPHIC] [TIFF OMITTED] 34698.052
    
    [GRAPHIC] [TIFF OMITTED] 34698.053
    
    [GRAPHIC] [TIFF OMITTED] 34698.054
    
    [GRAPHIC] [TIFF OMITTED] 34698.055
    
    [GRAPHIC] [TIFF OMITTED] 34698.056
    
    [GRAPHIC] [TIFF OMITTED] 34698.057
    
    [GRAPHIC] [TIFF OMITTED] 34698.058
    
    [GRAPHIC] [TIFF OMITTED] 34698.059
    
    [GRAPHIC] [TIFF OMITTED] 34698.060
    
    [GRAPHIC] [TIFF OMITTED] 34698.061
    
    [GRAPHIC] [TIFF OMITTED] 34698.062
    
    [GRAPHIC] [TIFF OMITTED] 34698.063
    
    [GRAPHIC] [TIFF OMITTED] 34698.064
    
    [GRAPHIC] [TIFF OMITTED] 34698.065
    
    [GRAPHIC] [TIFF OMITTED] 34698.066
    
    [GRAPHIC] [TIFF OMITTED] 34698.067
    
    [GRAPHIC] [TIFF OMITTED] 34698.068
    
    [GRAPHIC] [TIFF OMITTED] 34698.069
    
    [GRAPHIC] [TIFF OMITTED] 34698.070
    
    [GRAPHIC] [TIFF OMITTED] 34698.071
    
    [GRAPHIC] [TIFF OMITTED] 34698.072
    
    [GRAPHIC] [TIFF OMITTED] 34698.073
    
    [GRAPHIC] [TIFF OMITTED] 34698.074
    
    Senator DeWine. Judge, thank you very much.
    Judge Jarvey?

 STATEMENT OF JOHN ALFRED JARVEY, NOMINEE TO BE DISTRICT JUDGE 
               FOR THE SOUTHERN DISTRICT OF IOWA

    Judge Jarvey. I would also like to thank the President of 
the United States for the nomination and for the trust that he 
has shown in my abilities.
    I would like to thank Senators Grassley and Harkin for 
their support and for their kind, kind comments here today.
    I would like to also thank you, Mr. Chairman, for chairing 
this hearing, and to Senator Biden for also presiding at the 
hearing.
    I would like to thank the members of the Administrative 
Office of the Courts for their longtime support of Magistrate 
Judges and Judges of the United States, and for their presence 
here today.
    I would be pleased to introduce members of my family who 
are with me today. They include my sister, Carol Hawkins, my 
nephew, Edmund Hawkins, my brother, William Jarvey, Jr. I am 
particularly honored that my father could attend the hearing 
today.
    While the President and the Senate are most immediately 
responsible for my opportunity to sit in this chair, it is my 
mother and my father that paved the long road, so I am very 
pleased and honored that my dad could be here today. My mother 
is suffering from a brief, but temporary, illness and could not 
make it.
    My wife and children could not make it today. My kids all 
just started college and high school and were just unable to be 
here on short notice.
    I would like to also thank the Honorable Robert Pratt, 
Chief Judge of the Southern District of Iowa, and Southern 
District of Iowa Clerk of Court Marjorie Krahn for their 
attendance. If confirmed, I will be honored to serve with them 
in the Southern District of Iowa.
    With that, I have no further comments. Thank you.
    [The biographical information of John Jarvey follows:] 
    [GRAPHIC] [TIFF OMITTED] 34698.075
    
    [GRAPHIC] [TIFF OMITTED] 34698.076
    
    [GRAPHIC] [TIFF OMITTED] 34698.077
    
    [GRAPHIC] [TIFF OMITTED] 34698.078
    
    [GRAPHIC] [TIFF OMITTED] 34698.079
    
    [GRAPHIC] [TIFF OMITTED] 34698.080
    
    [GRAPHIC] [TIFF OMITTED] 34698.081
    
    [GRAPHIC] [TIFF OMITTED] 34698.082
    
    [GRAPHIC] [TIFF OMITTED] 34698.083
    
    [GRAPHIC] [TIFF OMITTED] 34698.084
    
    [GRAPHIC] [TIFF OMITTED] 34698.085
    
    [GRAPHIC] [TIFF OMITTED] 34698.086
    
    [GRAPHIC] [TIFF OMITTED] 34698.087
    
    [GRAPHIC] [TIFF OMITTED] 34698.088
    
    [GRAPHIC] [TIFF OMITTED] 34698.089
    
    [GRAPHIC] [TIFF OMITTED] 34698.090
    
    [GRAPHIC] [TIFF OMITTED] 34698.091
    
    [GRAPHIC] [TIFF OMITTED] 34698.092
    
    [GRAPHIC] [TIFF OMITTED] 34698.093
    
    [GRAPHIC] [TIFF OMITTED] 34698.094
    
    [GRAPHIC] [TIFF OMITTED] 34698.095
    
    [GRAPHIC] [TIFF OMITTED] 34698.096
    
    [GRAPHIC] [TIFF OMITTED] 34698.097
    
    [GRAPHIC] [TIFF OMITTED] 34698.098
    
    [GRAPHIC] [TIFF OMITTED] 34698.099
    
    Senator DeWine. Judge, thank you very much.
    Judge Lioi?

STATEMENT OF SARA ELIZABETH LIOI, NOMINEE TO BE DISTRICT JUDGE 
               FOR THE NORTHERN DISTRICT OF OHIO

    Judge Lioi. Thank you, Mr. Chairman. I have no opening 
statement. However, I would like to thank the Chair for 
conducting this hearing today. I would like to thank Senator 
Biden for his presence.
    I would also like to thank the President for nominating me, 
and you, Senator DeWine and Senator Voinovich, for your very 
kind and gracious words and your support of me throughout this 
process.
    I do have some family members and friends here today and I 
would like to introduce them at this time. My mother, Rosaria, 
is here with us today. I consider that a blessing. She spent 
quite a few months in the hospital earlier this year and I feel 
very blessed that she was able to make the trip.
    Also, two of my sisters, Carmela Lioi and Germann are with 
us today, and my cousin, Helen Garofalo. I also have some very 
dear friends of mine, Diana Pittman, Judge Michael Howard, and 
Tim and Debby Bentivegna. I thank them for their attendance 
here today as well.
    [The biographical information of Sara Lioi follows:] 
    [GRAPHIC] [TIFF OMITTED] 34698.100
    
    [GRAPHIC] [TIFF OMITTED] 34698.101
    
    [GRAPHIC] [TIFF OMITTED] 34698.102
    
    [GRAPHIC] [TIFF OMITTED] 34698.103
    
    [GRAPHIC] [TIFF OMITTED] 34698.104
    
    [GRAPHIC] [TIFF OMITTED] 34698.105
    
    [GRAPHIC] [TIFF OMITTED] 34698.106
    
    [GRAPHIC] [TIFF OMITTED] 34698.107
    
    [GRAPHIC] [TIFF OMITTED] 34698.108
    
    [GRAPHIC] [TIFF OMITTED] 34698.109
    
    [GRAPHIC] [TIFF OMITTED] 34698.110
    
    [GRAPHIC] [TIFF OMITTED] 34698.111
    
    [GRAPHIC] [TIFF OMITTED] 34698.112
    
    [GRAPHIC] [TIFF OMITTED] 34698.113
    
    [GRAPHIC] [TIFF OMITTED] 34698.114
    
    [GRAPHIC] [TIFF OMITTED] 34698.115
    
    [GRAPHIC] [TIFF OMITTED] 34698.116
    
    [GRAPHIC] [TIFF OMITTED] 34698.117
    
    [GRAPHIC] [TIFF OMITTED] 34698.118
    
    [GRAPHIC] [TIFF OMITTED] 34698.119
    
    [GRAPHIC] [TIFF OMITTED] 34698.120
    
    [GRAPHIC] [TIFF OMITTED] 34698.121
    
    [GRAPHIC] [TIFF OMITTED] 34698.122
    
    [GRAPHIC] [TIFF OMITTED] 34698.123
    
    [GRAPHIC] [TIFF OMITTED] 34698.124
    
    [GRAPHIC] [TIFF OMITTED] 34698.125
    
    [GRAPHIC] [TIFF OMITTED] 34698.126
    
    [GRAPHIC] [TIFF OMITTED] 34698.127
    
    [GRAPHIC] [TIFF OMITTED] 34698.128
    
    [GRAPHIC] [TIFF OMITTED] 34698.129
    
    [GRAPHIC] [TIFF OMITTED] 34698.130
    
    [GRAPHIC] [TIFF OMITTED] 34698.131
    
    [GRAPHIC] [TIFF OMITTED] 34698.132
    
    [GRAPHIC] [TIFF OMITTED] 34698.133
    
    [GRAPHIC] [TIFF OMITTED] 34698.134
    
    [GRAPHIC] [TIFF OMITTED] 34698.135
    
    [GRAPHIC] [TIFF OMITTED] 34698.136
    
    Senator DeWine. Good. Well, we welcome everyone. We are 
glad everyone is here. Thank you very much.
    Judge Jordan, you have written ``it takes restraint to 
recognize that even when you have the tools to right wrongs, 
not everything that you perceive as wrong is yours to right.''
    Would you say that this is an accurate expression of your 
judicial philosophy, and how do you think this philosophy will 
manifest itself if, in fact, you are confirmed as the appellate 
judge?
    Judge Jordan. That is a quick summary of an attribute I 
very much admire in judges that I have known. I know it is an 
attribute that I want, and I think I have, exhibited in my time 
on the bench.
    I feel a great responsibility whenever I walk into the 
courtroom to see to it that the elected offices in our 
government are given the deference and respect that they ought 
to have.
    I want to echo what the other judges have said here about 
gratitude to the President for the nomination. This is the 
second opportunity I have had to be nominated by President 
Bush, and my gratitude knows no bounds.
    I just feel it is really important that when we are wearing 
the robe and presiding, that we keep firmly in mind that we are 
to apply the law, we are not there to make public policy.
    Senator DeWine. Judge, how do you feel your background as a 
trial judge will help you in your new position?
    Judge Jordan. Well, I certainly will have a real 
appreciation for what it takes to create a trial record and to 
be conscious of the work and the many opportunities that come 
up for a district judge to make a close call on a point of 
evidence or on a motion that is before them.
    I would be very tuned in to the rules of deference that are 
in place for appellate review because they make our system 
function in a sensible way.
    Senator DeWine. You have a great deal of background in 
intellectual property, certainly a specialized area of 
practice. How has that helped you in the district court, and 
what impact will that have, do you think, in your appellate 
work?
    Judge Jordan. Well, the District of Delaware has a very 
full docket of patent cases. Those cases will, on appellate 
review, end up before the Federal Circuit. But the kinds of 
issues that frequently accompany them, antitrust issues, for 
example, and the kinds of procedural issues that come up in the 
patent cases, complicated cases as they are, will, of course, 
come to the Third Circuit. The trademark cases and copyright 
cases I have handled will also end up in the Third Circuit.
    I believe, having handled those at the district court 
level, I will again have an appreciation for the challenge it 
is when you have multiple parties and a lot of money on the 
table, as you do in these intellectual property cases 
regularly, what it has taken to get the case to appellate 
review, and hopefully that will stand me in good stead as I am 
considering the complicated issues that will arise on appeal.
    Senator DeWine. Senator Biden?
    Senator Biden. Judge, tell me your view of stare decisis. I 
did, with the help of some constitutional scholars, a study 
about three years ago. Since the Supreme Court is not taking 
that many cases on cert these days, not hearing as many cases 
as they used to by a long shot, you guys are the last stop on 
the train for a significant number of constitutional issues, 
more than any time that I can think of in the last 75 years.
    Tell me how you, as a circuit court judge, would have a 
view different, if it is different, from your view of stare 
decisis as a district court judge.
    Judge Jordan. Well, Senator, it would not be different in 
any material respect. As an appellate court judge, I know I 
would be working within the framework of decisions that the 
Third Circuit had already rendered, and those are typically 
only changed by an en banc ruling of the court, and certainly 
would be bound by the decisions of the Supreme Court.
    So as I have tried to do as a district court judge, I would 
be paying very close attention to the precedents set that would 
regulate and bind decision making that I would be called upon 
to make as a circuit court judge.
    Senator Biden. Would you look to the Third Circuit itself 
and be inclined to give it deference on matters that came 
before you as opposed to assuming that the question in question 
had not been litigated before the Supreme Court?
    Judge Jordan. If it had been a matter decided by the Third 
Circuit--and I confess, I have not taken a look at the internal 
operating procedures of the court in some time--I believe that 
there are procedures that the court has so that panels will be 
following the precedent that is established within the circuit, 
unless there has been some wider review by the court sitting en 
banc.
    Senator Biden. One of the things I have learned as a 
Senator, I have been here a while, is that everything I have 
ever written has been read much after the fact. No one read it 
when I wrote it when I was in law school, but they sure read it 
now. You wrote an article, I believe at Georgetown, dealing 
with foreign intelligence gathering.
    You wrote that ``although the intelligence function is 
subject to the shared powers of Congress and the President, it 
is a function which constitutional theory and practice is 
entrusted primarily to the President, and over which he has 
significant independent power.''
    You went on to claim that ``because access to information 
is the very heart of the President's ability to wield these 
powers, no amount of congressional action should be able to 
prevent him from gathering the intelligence he deems necessary 
in the exercise of these powers.''
    You may very well be in the Third Circuit, and it is a very 
hot topic now, as you know. The Foreign Intelligence 
Surveillance Act, so called FISA, which I co-sponsored and 
wrote.
    Does that automatically mean that the congressional 
definition of what the last stop on the train is is one that 
automatically would be dismissed, that there is no ability of 
Congress to in any way affect the President's gathering of 
information as long as it is not inconsistent with the Fourth 
Amendment?
    Judge Jordan. No, sir. I really wish that I had written on 
the Uniform Commercial Code when I was a law student.
    [Laughter].
    Senator Biden. I do not know anything about the Uniformed 
Commercial Code.
    Judge Jordan. But who knew, right, 22 years ago?
    Senator Biden. You tend to ask only those questions you 
know something about.
    Judge Jordan. Yes. Yes. Senator, when I was writing that 
article lo those many years ago, I was endeavoring, for myself, 
to understand the framework that Justice Jackson had laid out 
in the steel seizure case, and get my arms around, as best I 
could, issues that were then very topical. As you have noted, 
they are topical again today.
    Senator Biden. You wrote that case about the time I was 
writing the law. That is worrisome to me that I am that old.
    [Laughter].
    Judge Jordan. As I tried to put into context, this is an 
area where politics and law intersect in a dramatic way, and 
that these are not easy cases. I mentioned FISA specifically 
and tried to address it in that article as well. If the matters 
were to come before me today, I can assure you that I would be 
giving it the most careful attention. And not to denigrate my 
work before because, frankly, I do not know how it stacks up 
now. I have not really given it as critical a read as perhaps I 
should.
    But hopefully with a mature viewpoint on the law and with 
the recent decisions that have come out, including some very 
recent pronouncements from the Supreme Court, I would be in a 
position to do justice to a structural constitutional issue 
like that.
    Senator Biden. Thank you.
    I say to the district court nominees, I do not have any 
questions for you. I have read your backgrounds and I am 
prepared to support you. But I am reminded of something that a 
man for whom I served under in this court, James O. Eastland 
from Mississippi, an old fellow who ran this committee for a 
long, long time, and I sat at the very end, the most junior 
member of the committee.
    One day, Mr. Chairman, he asked me whether I would come 
down to Mississippi and campaign for him. The reason was, they 
were running the campaign about, he was getting too old.
    At that time, I was 32 years old. My job was to go down and 
point out, which was accurate, that even though he was 84, he 
was more than twice my age, I had trouble keeping up with him, 
like your nominee does keeping up with her mother. I had 
trouble doing that.
    I went down and there was a big event he had for all the 
Judges that he had been involved in appointing in Mississippi. 
The room was as full as this room. It was at a dinner. All of 
them got up and said what you said, I want to thank the 
President for nominating me.
    Then they got all finished, and they turned to the Chairman 
of the Judiciary Committee, the most powerful man in the 
country at the time, and he stood up and he looked out at all 
the Judges and he said, ``You all just got finished telling us 
how you got appointed by Eisenhower and Kennedy and Carter.'' 
Carter had been President. He said, ``You all know why you are 
Federal judges, don't you? '' Everybody just looked. He said, 
``Because Jim Eastland said so.''
    [Laughter].
    You are district court judges because of the Senators who 
nominated you and the President agreed. That has been the 
custom here. So, the President did have to be convinced, and he 
clearly was, that you are fully, fully worthy of the job.
    Circuit court judges are different. Circuit court judges 
are the place where Presidents have reserved the right, under 
the traditions of the Senate, because there are multiple 
jurisdictions, to pick whom he or she wishes to be on the court 
and not feel obliged to go through any senatorial picking 
process.
    But I was just reminded of old Jim Eastland when you said 
that. I think that Senator DeWine, as they say in the southern 
part of my State, ``done good'' in picking you, Judge.
    I wanted to say for the record that I have received 
telephone calls and notes from folks I know in Iowa who are in 
the opposite party, strongly, strongly supporting Judge Jarvey.
    I think, Ms. Howard, you did not need any notes. You are 
obviously qualified. So I want to thank you all for being here. 
Thank you for being willing to serve, and thank your families 
for being here.
    As I indicated to the Chairman, I am not able to stay. I 
have an appointment, that I am now a few minutes late for, at 
3:00. But I wish you well, Judge Jordan. I think you will make 
a fine Judge.
    Mr. Chairman, thank you for convening the hearing. Thank 
you all.
    Judge Jordan. Thank you, Senator.
    Senator DeWine. Senator Biden, thank you very much.
    I do have a few questions, though. Let me turn to our 
district court nominees. I am going to ask all of you some 
general questions. And we will start with you, Judge Howard, 
then we will go right down the line.
    Let us start with your views on settlement procedures and 
what the proper role of a judge is in settlement procedures. 
Judge?
    Judge Howard. Thank you for allowing me to comment on that, 
Senator. The Middle District of Florida, as I am sure you know, 
is one of the busiest districts in the Nation.
    We have the seventh highest weighted caseload, so we rely a 
great deal on settlement conferences. Most of our Judges, our 
district judges, refer parties to the Magistrate Judges to 
conduct settlement conferences. I find them to be a very 
valuable tool.
    It is the opportunity for the parties to once again take 
control of the process. Frequently it allows them to get an 
outcome that would not be possible simply through litigation.
    The parties tend to be very satisfied with that. So I think 
it is a very useful tool, both for allowing people their 
respect for the judicial system, and also for reducing our 
caseload.
    Senator DeWine. Judge Jarvey?
    Judge Jarvey. Thank you, Senator. Before I respond to the 
question directly, I neglected to mention that I am also joined 
here today by a longtime friend, Matthew Novak, and I am 
honored by his presence as well.
    I am a strong proponent of court-sponsored alternative 
dispute resolution. As a Magistrate Judge, I have conducted 
over 500 mediations, summary jury trials, and other settlement 
techniques.
    My anecdotal experience is that 90 percent or more of our 
civil litigants do not want a full-blown trial. For those 
folks, I believe that is important to offer another effective 
way to resolve their disputes. So I fully support court-annexed 
alternative dispute resolution.
    Senator DeWine. Judge Lioi?
    Judge Lioi. Yes. Thank you for the opportunity to respond, 
Senator. I, as a State court trial judge, oftentimes will defer 
cases to settlement negotiations. We have a wonderful mediation 
program in Stark County.
    If I am fortunate enough to be confirmed to the district 
court level, it is my understanding that the U.S. district 
court for the Northern District has a very comprehensive 
alternative dispute resolution program where they offer the 
parties a variety of different dispute resolution mechanisms, 
from arbitration, to mediation, to early neutral evaluation of 
a case, to summary jury trials.
    I would make use of all of the tools to assist parties in 
resolving their disputes efficiently and effectively. It has 
been my experience that attorneys and parties embrace 
alternative dispute programs.
    Senator DeWine. Judge Howard, let me turn to another issue 
that I experienced when I was a county prosecutor many, many 
years ago, and I think most attorneys who practice much in 
court experience, and that is the balance between a judge who 
needs to control the courtroom and a judge who sometimes goes 
too far, at least from the attorney's point of view, and does 
not let you try your case. How do you deal with that? I want to 
try my case if I am a lawyer, but obviously you have to control 
what is going on in your courtroom. How do you do that?
    Judge Howard. Well, Senator, I think that being a trial 
judge requires a very careful balance, because you absolutely 
have to control the courtroom. It is necessary for the respect 
for the process. It is necessary to assure that lawyers treat 
the litigants with dignity and respect at all times.
    Certainly an advocate needs to be permitted to try his 
case, as you say. But there are permissible bounds of advocacy 
and it is the role of the judge to impose those.
    Senator DeWine. Judge Jarvey?
    Judge Jarvey. Thank you, Senator. I see no inconsistency 
between keeping control of a courtroom and allowing lawyers to 
try their case. There are two different issues. I have 
steadfastly stayed out of the advocacy business as a judge. I 
believe that it is the prerogative of the lawyer to be in 
control of their case.
    For that reason, I do not ask questions of witnesses during 
jury trials for fear of the appearance in front of the jury 
that I am too far into the litigation. I have had no difficulty 
controlling my courtroom and I have never raised my court in 
order to do it.
    Senator DeWine. Judge Lioi?
    Judge Lioi. Yes. I concur with the comments of my fellow 
nominees, that the role of a judge is to ensure due process. 
There is a careful balance that must take place, but the goal 
of the proceedings must be the orderly administration of the 
law.
    It is very important that while you permit attorneys to try 
their cases, that you also make sure that the trying of a case 
is done within the proper parameters of the code of 
responsibility, and also that everyone in the proceedings gets 
due process.
    Senator DeWine. Let me ask, starting with you, Judge Lioi, 
why you want to be a Federal judge.
    Judge Lioi. Thank you for the opportunity to answer that 
question, Senator. I have had the privilege and honor of 
serving the public as a State court judge for nearly nine years 
now and I take my duties and responsibilities very seriously to 
administer cases and controversies which come before me 
impartially, fairly, and I consider it a very high honor to be 
considered to serve on the Federal court bench.
    I cannot imagine a higher honor for a sitting judge in a 
State court to be considered for a Federal position. I would 
welcome the opportunity to administer cases on the Federal 
bench.
    While I would still have the opportunity to apply case law 
in diversity cases, I would also have the opportunity to decide 
cases and controversies involving Federal law. And again, if I 
am fortunate enough to be confirmed, I would welcome and 
embrace that opportunity.
    Senator DeWine. Judge Jarvey?
    Judge Jarvey. Thank you, Senator. I have devoted my entire 
career to public service in Federal Court. Over the last, 
almost 19 years now of being a U.S. Magistrate Judge, I have 
had the privilege to preside over cases and controversies 
involving some of the most complex disputes in Iowa.
    After this amount of time, I believe that I am well 
qualified for the position. And, frankly, I am just looking for 
more challenges. I look forward to the opportunity to take on 
more responsibility and a steady stream of bigger challenges. 
Thank you.
    Senator DeWine. Judge Howard?
    Judge Howard. Thank you, Senator. I am honored to serve as 
a Magistrate Judge in the Middle District of Florida right now. 
It is an amazing opportunity, and at the same time a very 
humbling experience, and one which I love.
    I recognize that the decisions that I would face, if I were 
fortunate enough to be confirmed as a district judge, would be 
more challenging decisions. They are more challenging 
intellectually, they are more challenging just sort of on a gut 
level, and I embrace that.
    I was raised by parents who immigrated to this country with 
nothing, basically, but their education. They never let my 
brother, my sister or I forget how fortunate we were to be here 
and to have the opportunities we have. They were great role 
models in teaching us that we owed something back.
    For me, the opportunity to serve as a district judge is the 
opportunity to continue to do what I love and to serve my 
country, so it makes it a very easy decision. I simply offer 
myself in that service.
    Senator DeWine. Judge Lioi, you chaired the Supreme Court 
of Ohio Board of Commissioners on Character and Fitness. How 
has this experience helped shape your views of the legal 
profession? What impact, if any, might that have on your work 
as a Federal Judge?
    Judge Lioi. Thank you for the question, Senator. It has 
been an honor for me to serve on the Board of Commissioners on 
Character and Fitness for the Supreme Court. I believe that all 
lawyers and Judges should engage in activities which promote 
competence in the legal system and improve the legal system.
    This is one small way that I have been fortunate enough to 
contribute to the profession in ensuring that the individuals 
who are licensed to practice law in Ohio have the requisite 
character and fitness qualifications to enjoy the privilege of 
being licensed.
    Service on this board has just underscored for me the 
qualities and characteristics that are necessary in a candidate 
for admission to the practice of law, the honesty, integrity, 
trustworthiness that are required of these individuals who will 
in turn serve their clients and the public.
    So, it has just been a great honor to serve on this board, 
to serve the bench, the bar, and the public. It has just, as I 
said, underscored the need for professionalism in the 
profession.
    Senator DeWine. Judge Jarvey, tell us a little bit about 
your experience at the Justice Department and how that may 
impact on your work on the bench.
    Judge Jarvey. My experience at the Department of Justice 
was just a phenomenal beginning to my trial career. I tried 
cases in Federal courts all across the country, appeared before 
well over 50 Federal district court judges, and argued many 
appeals.
    The experience of practicing in front of so many different 
Judges gave me an opportunity to see so many things that I 
appreciated and respected, and a number of things that, 
frankly, I did not.
    If confirmed as a district court judge, I would employ 
those practices that I have been employing that I learned from 
judges across the country during my experience at the 
Department of Justice.
    Senator DeWine. All right.
    Judge Howard, in your experience as a magistrate judge, how 
has that prepared you to serve on the district court?
    Judge Howard. Well, Senator, as a magistrate judge, I 
perform a subset of the responsibilities of an Article 3 Judge. 
I am very fortunate, as I mentioned earlier. Because the Middle 
District is as busy as it is, the Middle District fully 
utilizes its magistrate judges.
    We enjoy the full authority that is permissible under the 
statute. So over the past three years, I have faced many of the 
very same decisions and the types of issues that I would face 
if confirmed as a district judge.
    In civil cases, on consent, I, in fact, sit as a district 
judge, and also on referral from the district judges handle 
many dispositive motions. So, I think it has given me a very 
unique opportunity to work with our district judges, to learn 
from them, and to do some of the same things that I would do if 
I am confirmed.
    Senator DeWine. I have one final question for each one of 
you. Supreme Court precedents are, of course, binding on 
Federal circuit court judges, and both Supreme Court and 
Federal circuit court precedents are binding on district 
courts.
    Are you committed and willing to follow the precedents of 
the higher courts faithfully and give them full force and 
effect, even if you might personally disagree with those 
precedents? Judge Jordan, your question, of course, would be in 
regard to the Supreme Court.
    Judge Jordan. The answer to that is, absolutely, Senator.
    Senator DeWine. Judge Howard? Judge Howard. And I answer it 
in the same way, absolutely.
    Senator DeWine. Judge Jarvey?
    Judge Jarvey. Absolutely. Yes.
    Senator DeWine. Judge Lioi?
    Judge Lioi. Absolutely.
    Senator DeWine. The record will remain open. You may get 
additional questions from members of the committee. If you do, 
we would suggest that you respond to them as quickly as 
possible.
    For the record, I have a statement for the record from 
Senator Nelson, I have a statement from Senator Leahy, and 
Senator Grassley's full statement for the record as well.
    [Whereupon, at 3:15 p.m. the hearing was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 34698.137

[GRAPHIC] [TIFF OMITTED] 34698.138

[GRAPHIC] [TIFF OMITTED] 34698.139

[GRAPHIC] [TIFF OMITTED] 34698.140

[GRAPHIC] [TIFF OMITTED] 34698.141

[GRAPHIC] [TIFF OMITTED] 34698.142

[GRAPHIC] [TIFF OMITTED] 34698.143

[GRAPHIC] [TIFF OMITTED] 34698.144

[GRAPHIC] [TIFF OMITTED] 34698.145

[GRAPHIC] [TIFF OMITTED] 34698.146

[GRAPHIC] [TIFF OMITTED] 34698.147

[GRAPHIC] [TIFF OMITTED] 34698.148

[GRAPHIC] [TIFF OMITTED] 34698.149

[GRAPHIC] [TIFF OMITTED] 34698.150

[GRAPHIC] [TIFF OMITTED] 34698.151

[GRAPHIC] [TIFF OMITTED] 34698.152

[GRAPHIC] [TIFF OMITTED] 34698.153

[GRAPHIC] [TIFF OMITTED] 34698.154

[GRAPHIC] [TIFF OMITTED] 34698.155

[GRAPHIC] [TIFF OMITTED] 34698.156

[GRAPHIC] [TIFF OMITTED] 34698.157

[GRAPHIC] [TIFF OMITTED] 34698.158

[GRAPHIC] [TIFF OMITTED] 34698.159

[GRAPHIC] [TIFF OMITTED] 34698.160

[GRAPHIC] [TIFF OMITTED] 34698.161



NOMINATIONS OF NORA BARRY FISCHER, NOMINEE TO BE DISTRICT JUDGE FOR THE 
   WESTERN DISTRICT OF PENNSYLVANIA; GREGORY FRIZZELL, NOMINEE TO BE 
 DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF OKLAHOMA; LAWRENCE JOSEPH 
   O'NEILL, NOMINEE TO BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF 
    CALIFORNIA; AND LISA WOOD, NOMINEE TO BE DISTRICT JUDGE FOR THE 
                      SOUTHERN DISTRICT OF GEORGIA

                              ----------                              


                      TUESDAY, SEPTEMBER 12, 2006

                              United States Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 2:08 p.m., in 
room 226, Dirksen Senate Office Building, Hon. Tom Coburn 
presiding.
    Also present: Senators Specter and Feinstein.

 OPENING STATEMENT OF HON. TOM COBURN, A U.S. SENATOR FROM THE 
                       STATE OF OKLAHOMA

    Senator Coburn. The Judiciary Committee will come to order.
    Today we have a confirmation hearing for four of the 
President's judicial nominees. On behalf of the committee, I 
would like to welcome all four of you. Some of you have 
traveled considerable distances, and I appreciate your 
willingness to appear before us today.
    I am particularly glad to see Judge Frizzell here, a fellow 
Oklahoman. It is our hope that we can move all of your 
nominations through the Committee quickly and get them voted on 
the floor before Congress goes out of session at the end of 
this month.
    I know Judge Frizzell will be particularly glad to hear 
that, because his term on the State court expires in January. 
We are going to do our best to make sure you have a job this 
winter, Judge.
    I would now like to turn to our full Committee Chairman, 
Arlen Specter, for any comments that he might have.

  PRESENTATION OF NORA BARRY FISCHER, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE WESTERN DISTRICT OF PENNSYLVANIA, BY HON. ARLEN 
     SPECTER, A U.S. SENATOR FROM THE STATE OF PENNSYLVANIA

    Chairman Specter. Well, thank you very much, Mr. Chairman, 
for chairing this hearing. You have accurately stated the 
intention of the Committee is to move these nominations through 
as promptly as possible, and I think it is realistic, unless 
something unforeseen occurs, to complete them before we adjourn 
at the end of this month.
    I also want to take a moment or two to join my 
distinguished colleague, Senator Santorum, in the introduction 
of Nora Barry Fischer to be U.S. District Judge for the Western 
District of Pennsylvania.
    Ms. Fischer comes to this nomination with an outstanding 
record, academically and professionally. She graduated from St. 
Mary's College Magna Cum Laude in 1973, and has a law degree 
from Notre Dame. She was editor at Callaghan and Company Legal 
Publications in 1976 and 1977.
    She was an associate at Meyer Darragh for 15 years, and 
then became an equity partner in the Pietragallo law firm, and 
she currently is the Defense Litigation Practicing Group co-
chair.
    Included in her work has been administrative partner in 
charge of recruitment and training. She has represented General 
Electric in both toxic tort and product liability cases. She 
has had significant mediation practice, having served as an 
adjunct settlement judge and as an arbitrator for the Western 
District of Pennsylvania, which gives her some judicial 
experience before approaching the bench.
    I would ask unanimous consent to put my full statement in 
the record and a full resume before yielding, if I may, Mr. 
Chairman, to Senator Santorum.
    Senator Coburn. Without objection. It is my understanding, 
because of the time pressure on Senator Inhofe of a Committee 
hearing, that he would be recognized first, if the Chairman has 
no objection to that.
    Chairman Specter. Fine.
    Senator Coburn. I want to welcome our fellow Senators here 
and look forward to your statements.
    Senator Inhofe, you are recognized.

PRESENTATION OF GREGORY FRIZZELL, NOMINEE TO BE DISTRICT JUDGE 
FOR THE WESTERN DISTRICT OF OKLAHOMA, BY HON. JAMES M. INHOFE, 
           A U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. I am hoping also 
that he will be allowed to introduce some of his family. Now, 
if he had all of his family here there would not be time to do 
that. But I am here today to support Judge Greg Frizzell, 
nominee for the U.S. district court for the Northern District 
of Oklahoma.
    His family is no stranger to the legal field. I can 
remember his daddy, who is here in the audience today--I saw 
him when he came in--Kent Frizzell. He served as Attorney 
General for the State of Kansas. That is when I first got to 
know his family. Later on when they moved to Oklahoma, we 
became very close friends.
    He has had all kinds of experience in the past in serving 
the Under Secretary of Interior, and he has taught at the 
University of Tulsa Law School for, I do not know, over 18 or 
20 years.
    So given his father's distinguished work, it is no surprise 
that Judge Frizzell felt compelled to pursue a career in public 
service, and his friends and colleagues have praised his 
professional qualifications and personal integrity, and all 
have emphasized his ability to rule fairly from the bench.
    Someone who has been around as long as this young judge has 
been around, you would think you would hear negative things. I 
have never heard anything negative about him. Robert Sartin, 
member of the Board of Governors of the Oklahoma Bar 
Association said, ``Judge Frizzell is a man of extremely good 
character and high integrity, with a deep sense of personal 
responsibility toward his fellow man.''
    Judge Claire Eagan, who was before this Committee not too 
long ago, praised him and talked about the urgency, the fact 
that that court right now has three judges doing the work of 
six.
    One of the prominent and well-respected attorneys in 
Oklahoma, Joe Wohlgemuth of Norman, Wohlgemuth, Chandler & 
Dowdell in Tulsa, called Judge Frizzell ``a man of integrity 
and a straight arrow''.
    Before serving in the current position of district Judge of 
the 14th Judicial District of Oklahoma, Greg Frizzell had a 
long and distinguished legal career and ample Federal 
experience.
    After graduating with a law degree from the University of 
Michigan, he clerked for Judge Tom Brett. Tom Brett is now in 
retirement and there is no one who has a better reputation than 
he, and he has praised and praised Greg Frizzell.
    Also, Ralph Thompson, who is getting very close to 
retirement, he is in senior status right now on the Federal 
bench in Oklahoma, has praised him.
    So, I just cannot think of anyone who has had a greater 
background and experience for this. He has held positions other 
than judicial positions. He was the General Counsel to the 
Oklahoma Tax Commission for a period of time. He has not only 
proven to be an effective and legal professional, but he is a 
devoted husband and loving father of six children.
    Getting back again to Mr. Wohlgemuth, he recalls an 
incident where Judge Frizzell, Mr. Chairman, had to stay late 
one night at work and he brought all six kids so he could spend 
time with them into the late hours. Anyone who can handle six 
kids while doing his judicial work, I think can handle this 
job.
    So, Judge Frizzell is a man of great moral integrity who 
has proven his character in both his private and public life. I 
cannot say enough about him and his qualifications to be the 
next U.S. district court judge for the Northern District of 
Oklahoma.
    Thank you very much.
    Senator Coburn. Thank you, Senator Inhofe.
    Senator Santorum?

  PRESENTATION OF NORA BARRY FISCHER, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE WESTERN DISTRICT OF PENNSYLVANIA, BY HON. RICK 
    SANTORUM, A U.S. SENATOR FROM THE STATE OF PENNSYLVANIA

    Senator Santorum. Thank you, Mr. Chairman. My colleague, 
Senator Specter, I think adequately reviewed Nora Barry 
Fischer's resume.
    Just let me comment on a couple of things. First, in 
general, Senator Specter and I have developed a system in 
Pennsylvania where we have always tried to make sure that we 
have a balance on the court, whether it is a Republican or 
Democratic administration.
    During a Democratic administration we have worked out 
agreements to have Republicans every fourth nominee. One in 
every four would have to be Republican. We do the same when 
there is a Republican President. We make sure that there is a 
Democrat in there. Every four district court nominees, there is 
a Democrat in the mix, and we do that by district.
    In the Western District, we have been very fortunate to put 
some really outstanding jurists on the court. The court has a 
very, very strong reputation. Hopefully soon-to-be Judge 
Fischer would be an excellent addition, but she is a Democrat. 
She is someone who, when we put her forward in this political 
season, I have to tell you, I was not sure what the reaction 
would be.
    Let me assure you, the reaction has been unanimous from 
both Republicans, Democrats, folks in the plaintiff's bar, the 
defense bar, you name it. We have not received a single 
negative word about Nora Barry Fischer.
    Given, again, the intensity of the political scene in 
Pennsylvania, I think it just speaks volumes for the kind of 
qualities that this woman brings to her practice of law, to the 
professional associations that she is involved with in the law, 
and as a past president of the Allegheny County Trial Lawyers 
Association, which is not necessarily an organization that is 
particularly complimentary to me on occasion, but she was an 
outstanding leader there and someone who has tremendous respect 
in our community.
    So when Senator Specter and I went through the names and we 
identified her name on the list, the feedback, again, we have 
gotten was extraordinary before we nominated her, and I will 
tell you, has been unanimously extraordinary since.
    My understanding from the Committee is that she was rated 
unanimously ``Well Qualified'' by the ABA. I am not surprised 
about that. She is someone who has been a trailblazer, as a 
woman in Pittsburgh in the legal profession, and has, as I said 
before, the utmost respect.
    I just mentioned lawyers. I should also say judges who have 
contacted us, including some of her future colleagues, I hope, 
on the court, who are ecstatic that her name has been placed in 
nomination.
    So, it is truly an honor for me to be here this morning to 
forward her nomination and encourage this Committee and the 
full U.S. Senate to act promptly on this nomination. Again, we 
have one vacancy and hope to have another one soon, so this is 
a court that definitely needs to have this vacancy filled.
    Thank you, Mr. Chairman.
    Senator Coburn. Thank you, Senator Santorum.
    Senator Chambliss?

PRESENTATION OF LISA WOOD, NOMINEE TO BE DISTRICT JUDGE FOR THE 
 SOUTHERN DISTRICT OF GEORGIA, BY HON. SAXBY CHAMBLISS, A U.S. 
               SENATOR FROM THE STATE OF GEORGIA

    Senator Chambliss. Thank you, Mr. Chairman. I very much 
appreciate the opportunity to appear this afternoon before the 
committee, and to be back before the committee. As a former 
member, I am particularly pleased to be back here.
    Senator Coburn. As a matter of fact, I have my seat because 
you are not here.
    Senator Chambliss. I think you have my seat, Mr. Chairman. 
I will always hold that against you, even though you are my 
dear friend.
    [Laughter.]
    But I am here both to introduce and heartily endorse 
President Bush's nomination of Lisa Godbey Wood to be U.S. 
district Judge for the Southern District of Georgia. In 
nominating Lisa Wood, the President has demonstrated his 
commitment to ensuring both the integrity and the quality of 
the Federal judiciary.
    Lisa Wood is an extraordinarily qualified individual who 
comes before this body at a time of urgency for the Southern 
District of Georgia. Currently, this distinguished Federal 
bench has but a single active Federal judge with the recent 
election by two judges to take senior status.
    This, in addition to recent health developments affecting 
one such judge, highlights the need for swift action by the 
Senate to ensure that the administration of justice continues 
in this important Federal District.
    I, and the people of Georgia, appreciate you, Chairman 
Coburn, along with Chairman Specter and Senator Leahy, for 
agreeing to schedule this hearing today. I urge prompt action 
in reporting favorably her nomination, and prompt confirmation 
by the Senate.
    Lisa has served with distinction as U.S. Attorney for the 
Southern District of Georgia since 2004. She was unanimously 
confirmed by the Senate in November of that year, and since 
that time she has effectively managed this important 
prosecution office, while overseeing significant Federal 
criminal prosecutions, including successful high-profile 
corruption cases and racketeering prosecutions involving the 
fraudulent diversion of black market pharmaceuticals.
    Lisa is a Summa Cum Laude graduate of the University of 
Georgia, where she was Phi Beta Kappa, and the University of 
Georgia Law School, where she was selected as a member of the 
Order of the Coif and served as managing editor of The Law 
Review, and Chief Justice of the Honor Court, among many other 
accomplishments and honors.
    Following graduation from law school, Lisa served as a law 
clerk to Hon. Anthony A. Alaimo of the Southern District of 
Georgia before joining the Brunswick law firm of Gilbert, 
Harrell, Summerford & Martin, where she actively litigated 
cases involving product liability, employment law, medical 
malpractice, white collar crime, and death penalty issues. She 
was elevated to litigating partner after just three and a half 
years, which is very significant.
    Ms. Wood served as president of the Brunswick Glynn County 
Bar Association in 1995 after many years of service in other 
leadership positions with the Bar Association.
    She served as a Magistrate Judge of the Glynn County 
Magistrate Court from 1998 to 2000, and is highly respected by 
members of the bench before whom she has appeared and by 
members of the bar who appeared before her and who served with 
her, including opposing counsel.
    Lisa has been active in community and civic associations, 
including the YWCA. She is active in her church. Moreover, Lisa 
Wood has contributed immeasurably to her profession, community, 
church, and country, while being a devoted wife to her husband 
Richard, and mother to two 4-year-old twins, Lachlan and 
Katherine, all of whom are with her today.
    I look back over here, Mr. Chairman, and I do not know what 
you did, but you put one of them to sleep over here.
    [Laughter.]
    These two children are obviously beautiful little 4-year-
old twins.
    Her husband, Richard, has been a dear friend of mine for 
many years. He is not nearly as good-looking as the twins are. 
But this is a beautiful family, and I look forward to Lisa 
having the opportunity to introduce them to you.
    Mr. Chairman, I urge the committee's swift and enthusiastic 
action to advance her nomination, and I look forward to the 
prompt confirmation of Lisa Wood to the Southern District of 
Georgia, and I thank you.
    Senator Coburn. Thank you, Senator Chambliss.
    Senator Isakson?

PRESENTATION OF LISA WOOD, NOMINEE TO BE DISTRICT JUDGE FOR THE 
 SOUTHERN DISTRICT OF GEORGIA, BY HON. JOHNNY ISAKSON, A U.S. 
               SENATOR FROM THE STATE OF GEORGIA

    Senator Isakson. Thank you, Mr. Chairman. I, at the outset, 
want to express my appreciation to Gregg Nunziata for his help 
in facilitating this hearing today, and I appreciate very much 
your chairing it.
    It is really an honor to introduce Lisa Godbey Wood to the 
committee, along with her husband Richard, her two children, 
and her mom and dad, who sit there proudly.
    I must mention, as part of the extended family, Hon. Judge 
Tony Alaimo from the Southern District of Georgia who is behind 
me and here today. He is a great servant of the United States 
of America, a great Georgian, and his service on the court for 
years is greatly appreciated.
    Mr. Chairman, in November of 2004, the U.S. Senate 
confirmed the appointment of Lisa Godbey Wood as U.S. Attorney 
in the Southern District of Georgia. In her term since that 
time she has served honorably and well the people of the United 
States.
    Senator Chambliss and I are in united support of her 
nomination to the U.S. district court in Georgia, and urge the 
Senate to facilitate its approval at a rapid rate.
    As Saxby as said, at the University of Georgia she was an 
Honor graduate. In fact, she earned the Meinhart Award for the 
highest grade point average all 3 years. She was the first 
Honor graduate at the University of Georgia.
    When she left the University of Georgia she went to clerk 
under this distinguished judge, Tony Alaimo, in the Southern 
District itself. She went into the private practice of law in 
1991, became a partner in 1995, and as I have said, because 
U.S. District Attorney in 1996.
    Her record of prosecution and indictments in the Southern 
District has been well-noted by Senator Chambliss. She is 
probably the most universally popular nominee I have ever seen 
appointed to the court since I have served in the Congress of 
the United States and the U.S. Senate.
    For me on a personal note, it is also very easy to make 
this introduction. I have known Lisa and Richard since 1996. 
They are two of our State's most outstanding students. She will 
be a great Judge on the court, and it is an honor for me today, 
as a U.S. Senator, to give her my highest commendation to this 
Committee and to the Senate.
    I thank you, Mr. Chairman.
    Senator Coburn. Thank you, Senator Isakson. I know that 
Senator Feinstein wanted to be here and is detained, so I might 
take the liberty right now of reading the resume on Lawrence 
Joseph O'Neill, the U.S. district Judge for the Eastern 
District of California nominee.
    Magistrate Judge Lawrence O'Neill was nominated to be a 
U.S. district court judge on August 2, 2006. He received his 
B.A. from the University of California at Berkeley in 1973, his 
M.P.A. from Golden Gate University in 1976, and his J.D. from 
the University of California, Hastings College of Law in 1979.
    During law school, Judge O'Neill served as a legal clerk to 
Hon. Roberts F. Cain of the First Appellate District of the 
California Court of Appeals. Following law school, Judge 
O'Neill joined the law firm of McCormick, Barstow, Sheppard, 
Wayte and Carruth as an associate. He became a partner with 
that firm in 1984.
    His practice focused almost exclusively on civil tort 
litigation. While working for that law firm, he also taught 
classes for 6 years as an Adjunct Professor at San Joaquin 
College of Law. He was honored by that college for his teaching 
skills and was presented with the ``Professor of the Year'' 
award.
    In 1990, Judge O'Neill was appointed to the Fresno County 
Superior Court. He served on that court until 1999, when he was 
appointed as U.S. Magistrate Judge in the U.S. district court 
for the Eastern District of California.
    Judge O'Neill has received numerous awards for his 
community service, including the annual Judicial Award 
presented by the Rape Counseling Service of Fresno County, and 
the ``20 Years of Service'' award presented by the Fresno 
County Mock Trial competition program.
    While serving as a presiding judge of the Juvenile Courts 
of Fresno County, Judge O'Neill was recognized for his 
outstanding efforts to prevent child abuse with the Judy 
Andreen-Nilson Award. The Fresno County Juvenile Justice 
Commission also presented him with the ``Award for Achievement 
in Juvenile Justice.''
    Let me ask, if I might, first, unanimous consent to enter 
into the record Ranking Member Senator Leahy's statement, and 
that will be done by unanimous consent, as well as the further 
statement of my own.
    Senator Coburn. I would ask our nominees to come forward. I 
would also note that Senator Feinstein is on her way, and we 
will give her the opportunity from the dais to present her 
recommendations for her nominee.
    If you all would come forward, please.
    If you would each raise your right hand.
    [Whereupon, the nominees were duly sworn.]
    Senator Coburn. By tradition, we will ask each of you to 
make an opening statement, and then we will have some questions 
for you. Hopefully this will be as painless as possible. We 
will interrupt your statement, as one of you finishes, when 
Senator Feinstein arrives.
    Ms. Fischer, please start.

 STATEMENT OF NORA BARRY FISCHER, NOMINEE TO BE DISTRICT JUDGE 
            FOR THE WESTERN DISTRICT OF PENNSYLVANIA

    Ms. Fischer. Thank you, Mr. Chairman. I have no prepared 
statement here today, but what I would like to do is, first, 
thank you, Mr. Chairman. I would certainly like to thank the 
Senators of my home State, Pennsylvania, Senators Santorum and 
Specter, for their kind words.
    In addition, I thank President Bush for considering me, and 
also nominating me to the potential judgeship on the Western 
District of Pennsylvania.
    Not having a statement, with your permission I would like 
to introduce my husband of 30-plus years.
    Senator Coburn. Absolutely.
    Ms. Fischer. Dr. Donald Fischer, who is with me here today. 
Unfortunately, our three children, Erin, Lauren and Adam, could 
not join us.
    I would also like to tip my hat to my parents, Michael and 
Olga Barry, who, because of health reasons, could not join us 
here today.
    I would also like to acknowledge my partners and friends at 
Pietragallo, Bosick & Gordon. My managing partner, Bill 
Pietragallo, has been particularly helpful in this quest.
    I would also like to thank all of the associates who are 
back on the ranch doing the work that needs to be done today, 
and my legal assistants and secretaries who worked hard on the 
applications.
    I would also like to say a word in thanks to my six 
sisters, who I will not all name, and my brother, who have 
supported me along the way and e-mailed and cheered me on 
today. A special salute to my godchild and niece, U.S. Army 
Captain Meghan Cumpston, who is serving in Afghanistan.
    [The biographical information of Nora Barry Fischer 
follows.] 
[GRAPHIC] [TIFF OMITTED] 34698.162

[GRAPHIC] [TIFF OMITTED] 34698.163

[GRAPHIC] [TIFF OMITTED] 34698.164

[GRAPHIC] [TIFF OMITTED] 34698.165

[GRAPHIC] [TIFF OMITTED] 34698.166

[GRAPHIC] [TIFF OMITTED] 34698.167

[GRAPHIC] [TIFF OMITTED] 34698.168

[GRAPHIC] [TIFF OMITTED] 34698.169

[GRAPHIC] [TIFF OMITTED] 34698.170

[GRAPHIC] [TIFF OMITTED] 34698.171

[GRAPHIC] [TIFF OMITTED] 34698.172

[GRAPHIC] [TIFF OMITTED] 34698.173

[GRAPHIC] [TIFF OMITTED] 34698.174

[GRAPHIC] [TIFF OMITTED] 34698.175

[GRAPHIC] [TIFF OMITTED] 34698.176

[GRAPHIC] [TIFF OMITTED] 34698.177

[GRAPHIC] [TIFF OMITTED] 34698.178

[GRAPHIC] [TIFF OMITTED] 34698.179

[GRAPHIC] [TIFF OMITTED] 34698.180

[GRAPHIC] [TIFF OMITTED] 34698.181

[GRAPHIC] [TIFF OMITTED] 34698.182

[GRAPHIC] [TIFF OMITTED] 34698.183

[GRAPHIC] [TIFF OMITTED] 34698.184

[GRAPHIC] [TIFF OMITTED] 34698.185

[GRAPHIC] [TIFF OMITTED] 34698.186

[GRAPHIC] [TIFF OMITTED] 34698.187

[GRAPHIC] [TIFF OMITTED] 34698.188

[GRAPHIC] [TIFF OMITTED] 34698.189

[GRAPHIC] [TIFF OMITTED] 34698.190

[GRAPHIC] [TIFF OMITTED] 34698.191

    Thank you.
    Senator Coburn. Thank you.
    Judge Frizzell?

STATEMENT OF GREGORY FRIZZELL, NOMINEE TO BE DISTRICT JUDGE FOR 
               THE NORTHERN DISTRICT OF OKLAHOMA

    Judge Frizzell. Thank you, Mr. Chairman.
    Like Ms. Fischer, I have no prepared statement, but would 
first like to thank the President for the honor of his 
nomination. I would also thank you for your kind words, and 
thank Senator Inhofe for his kind words.
    I want to thank the Committee for having scheduled this 
hearing today, and if I might, introduce my family who is here 
today.
    Senator Coburn. Absolutely. Please do.
    Judge Frizzell. First of all my wife of 15-plus years, 
Kelly Nash Frizzell, my mother, Shirley Frizzell, my father, 
Kent Frizzell, and my sister, Angela Frizzell.
    Senator Coburn. Great. And where are the six kids?
    Judge Frizzell. With notice on Friday afternoon, we could 
not load them all up on the bus and get them here in time.
    Senator Coburn. Right.
    Any other comments?
    Judge Frizzell. No, sir. Thank you.
    [The biographical information of Gregory Frizzell follows.] 

[GRAPHIC] [TIFF OMITTED] 34698.192

[GRAPHIC] [TIFF OMITTED] 34698.193

[GRAPHIC] [TIFF OMITTED] 34698.194

[GRAPHIC] [TIFF OMITTED] 34698.195

[GRAPHIC] [TIFF OMITTED] 34698.196

[GRAPHIC] [TIFF OMITTED] 34698.197

[GRAPHIC] [TIFF OMITTED] 34698.198

[GRAPHIC] [TIFF OMITTED] 34698.199

[GRAPHIC] [TIFF OMITTED] 34698.200

[GRAPHIC] [TIFF OMITTED] 34698.201

[GRAPHIC] [TIFF OMITTED] 34698.202

[GRAPHIC] [TIFF OMITTED] 34698.203

[GRAPHIC] [TIFF OMITTED] 34698.204

[GRAPHIC] [TIFF OMITTED] 34698.205

[GRAPHIC] [TIFF OMITTED] 34698.206

[GRAPHIC] [TIFF OMITTED] 34698.207

[GRAPHIC] [TIFF OMITTED] 34698.208

[GRAPHIC] [TIFF OMITTED] 34698.209

[GRAPHIC] [TIFF OMITTED] 34698.210

[GRAPHIC] [TIFF OMITTED] 34698.211

[GRAPHIC] [TIFF OMITTED] 34698.212

[GRAPHIC] [TIFF OMITTED] 34698.213

[GRAPHIC] [TIFF OMITTED] 34698.214

[GRAPHIC] [TIFF OMITTED] 34698.215

[GRAPHIC] [TIFF OMITTED] 34698.216

[GRAPHIC] [TIFF OMITTED] 34698.217

[GRAPHIC] [TIFF OMITTED] 34698.218

[GRAPHIC] [TIFF OMITTED] 34698.219

[GRAPHIC] [TIFF OMITTED] 34698.220

[GRAPHIC] [TIFF OMITTED] 34698.221

[GRAPHIC] [TIFF OMITTED] 34698.222

[GRAPHIC] [TIFF OMITTED] 34698.223

    Senator Coburn. Thank you.
    Judge O'Neill?

STATEMENT OF LAWRENCE J. O'NEILL, NOMINEE TO BE DISTRICT JUDGE 
             FOR THE EASTERN DISTRICT OF CALIFORNIA

    Judge O'Neill. Good afternoon. I would first like to thank, 
also, the President for the nomination. I would like to thank 
you for your words and for convening this Committee meeting so 
that we could move forward. I would like to--and I will hold 
off just a second if you would like.
    [The biographical information of Lawrence J. O'Neill 
follows.] 
[GRAPHIC] [TIFF OMITTED] 34698.224

[GRAPHIC] [TIFF OMITTED] 34698.225

[GRAPHIC] [TIFF OMITTED] 34698.226

[GRAPHIC] [TIFF OMITTED] 34698.227

[GRAPHIC] [TIFF OMITTED] 34698.228

[GRAPHIC] [TIFF OMITTED] 34698.229

[GRAPHIC] [TIFF OMITTED] 34698.230

[GRAPHIC] [TIFF OMITTED] 34698.231

[GRAPHIC] [TIFF OMITTED] 34698.232

[GRAPHIC] [TIFF OMITTED] 34698.233

[GRAPHIC] [TIFF OMITTED] 34698.234

[GRAPHIC] [TIFF OMITTED] 34698.235

[GRAPHIC] [TIFF OMITTED] 34698.236

[GRAPHIC] [TIFF OMITTED] 34698.237

[GRAPHIC] [TIFF OMITTED] 34698.238

[GRAPHIC] [TIFF OMITTED] 34698.239

[GRAPHIC] [TIFF OMITTED] 34698.240

[GRAPHIC] [TIFF OMITTED] 34698.241

[GRAPHIC] [TIFF OMITTED] 34698.242

[GRAPHIC] [TIFF OMITTED] 34698.243

[GRAPHIC] [TIFF OMITTED] 34698.244

[GRAPHIC] [TIFF OMITTED] 34698.245

[GRAPHIC] [TIFF OMITTED] 34698.246

[GRAPHIC] [TIFF OMITTED] 34698.247

[GRAPHIC] [TIFF OMITTED] 34698.248

[GRAPHIC] [TIFF OMITTED] 34698.249

[GRAPHIC] [TIFF OMITTED] 34698.250

    Senator Coburn. Senator Feinstein?
    Senator Feinstein. Can I get settled?
    Senator Coburn. You bet. You bet. We will wait and allow 
you to settle.

PRESENTATION OF LAWRENCE O'NEILL, NOMINEE TO BE DISTRICT JUDGE 
    FOR THE EASTERN DISTRICT OF CALIFORNIA, BY HON. DIANNE 
     FEINSTEIN, A U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
apologize. We were in our caucus and I was the last one up to 
talk about FISA. So, I appreciate this opportunity.
    I would like to, first of all, thank Chairman Specter for 
the accommodation of my request for expedited consideration of 
Judge Lawrence O'Neill's nomination to the Eastern District of 
California, and it is my great pleasure to introduce him here 
today.
    His appointment is really critical because there is a major 
judicial emergency in the Eastern District of California. The 
Fresno Division to which Judge O'Neill is nominated is 
suffering from a particularly acute overload of cases.
    Judge Oliver Wanger and Senior Judge Anthony Ischi are 
currently the only judges in this division. They share a 
caseload of 2,928 active cases. Now, this is an average 
caseload of 1,464 active cases per judge. It is the highest 
caseload by far in the Nation. By contrast, the average 
weighted caseload nationally for a Federal district court judge 
is 524 cases, so this is three times that.
    The people of Fresno and the Eastern District truly need 
the help that Judge O'Neill can provide. Fortunately, he is 
uniquely qualified to step in and offer some immediate relief 
because he has been a Magistrate Judge in the District since 
1999, or for 7 years.
    In addition, for the last 17 years he has been a judge in 
California, spending 10 years as a Superior Court Judge in 
Fresno before becoming a Magistrate. He is a home-grown 
Californian. He was born in Oakland.
    He attended school in our State. He received a Bachelor's 
Degree in Criminology from the University of California at 
Berkeley, a Master's degree in Public Education from Golden 
Gate University, and a law degree from Hastings College of Law, 
which is where my daughter, now a judge, received her law 
degree as well.
    So before attending law school, he was a police officer for 
the City of San Leandro, and I think that additional 
perspective is actually an asset on the bench because I assume 
he then has street smarts as well as academic smarts. The ABA 
has unanimously declared him to be ``Well Qualified'', their 
highest rating.
    Now, as you know, in California we have a bipartisan 
process. Anyone that would like to be considered to be a judge 
can apply. They are screened, they are interviewed, and this 
commission, chaired by Mr. Parsky, contains three Democrats, 
three Republicans, and Judge O'Neill's nomination was the 
product of this commission.
    He was one of five nominees submitted to the President for 
his consideration. Although Senator Boxer could not be here 
today, she asked me to relay her support for his nomination. 
She will be entering a separate statement into the record.
    So, Judge O'Neill, I congratulate you on this nomination. 
Mr. Chairman, I thank you, and hope we can move this through 
speedily so that this emergency can be alleviated.
    Thank you.
    Senator Coburn. Thank you, Senator Feinstein. And Judge 
O'Neill, I do not know if you introduced family or not, but you 
are more than welcome to do so.
    Judge O'Neill. Not yet. Senator Feinstein's entrance was 
very timely because I was about ready to thank her as well.
    I do thank you, Senator, for your words, and also the help 
that your office and Senator Boxer's office has been to move us 
forward so that we can take care of the emergency that you have 
amply discussed.
    I would like to introduce my family, if I could. My wife, 
Kathleen, and my son, William. William flew all night to be 
here. He is in his last year of Hastings Law School as well. My 
daughter Erin sends her best, as she is starting her last year 
at Northwestern University in Evanston, Illinois. After hearing 
for 10 minutes why it was just impossible to be here, I 
understood. I accepted it.
    Lastly, my mother sends her best. She is also a lawyer. She 
started University of California, Bolt Hall, back in 1940. She 
is 87, and her health does not permit her to be here, but she 
is certainly here in spirit.
    Senator Coburn. I understand. Well, you certainly have the 
background and academics to handle 1,500 active cases a year.
    Judge Wood?

 STATEMENT OF LISA WOOD, NOMINEE TO BE DISTRICT JUDGE FOR THE 
                  SOUTHERN DISTRICT OF GEORGIA

    Judge Wood. Thank you. I want to first begin by thanking 
the Committee for giving us the opportunity to have this 
hearing, and to thank my home State Senators, Senator Chambliss 
and Senator Isakson, for supporting me, and the President as 
well for nominating me.
    I would also like to introduce my friends and family who 
have made the journey from Georgia. I have with me my husband, 
Richard Wood. The first of our twins, Katherine Wood, and my 
son, Lachlan Wood, fell asleep earlier. But he is in my 
mother's arms. That is my mother, Sue Godbey, my father, Dr. 
Edsel Godbey.
    Also here with me is Judge Anthony Alaimo, who, as an 86-
year-old, got up at 4:00 this morning to fly to be here with us 
today. I was privileged to clerk with him and he is my mentor, 
and I am honored by his presence.
    Also with him is his courtroom deputy, Loyal Buford Rowe. 
My two best friends have come to be with us as well, Rita 
Spalding and Ginger Adams.
    Finally, I would like to thank the staff of the U.S. 
Attorney's Office for making me look good. Thank you.
    [The biographical information of Lisa Wood follows.] 
    [GRAPHIC] [TIFF OMITTED] 34698.251
    
    [GRAPHIC] [TIFF OMITTED] 34698.252
    
    [GRAPHIC] [TIFF OMITTED] 34698.253
    
    [GRAPHIC] [TIFF OMITTED] 34698.254
    
    [GRAPHIC] [TIFF OMITTED] 34698.255
    
    [GRAPHIC] [TIFF OMITTED] 34698.256
    
    [GRAPHIC] [TIFF OMITTED] 34698.257
    
    [GRAPHIC] [TIFF OMITTED] 34698.258
    
    [GRAPHIC] [TIFF OMITTED] 34698.259
    
    [GRAPHIC] [TIFF OMITTED] 34698.260
    
    [GRAPHIC] [TIFF OMITTED] 34698.261
    
    [GRAPHIC] [TIFF OMITTED] 34698.262
    
    [GRAPHIC] [TIFF OMITTED] 34698.263
    
    [GRAPHIC] [TIFF OMITTED] 34698.264
    
    [GRAPHIC] [TIFF OMITTED] 34698.265
    
    [GRAPHIC] [TIFF OMITTED] 34698.266
    
    [GRAPHIC] [TIFF OMITTED] 34698.267
    
    [GRAPHIC] [TIFF OMITTED] 34698.268
    
    [GRAPHIC] [TIFF OMITTED] 34698.269
    
    [GRAPHIC] [TIFF OMITTED] 34698.270
    
    [GRAPHIC] [TIFF OMITTED] 34698.271
    
    [GRAPHIC] [TIFF OMITTED] 34698.272
    
    [GRAPHIC] [TIFF OMITTED] 34698.273
    
    [GRAPHIC] [TIFF OMITTED] 34698.274
    
    [GRAPHIC] [TIFF OMITTED] 34698.275
    
    [GRAPHIC] [TIFF OMITTED] 34698.276
    
    [GRAPHIC] [TIFF OMITTED] 34698.277
    
    [GRAPHIC] [TIFF OMITTED] 34698.278
    
    [GRAPHIC] [TIFF OMITTED] 34698.279
    
    [GRAPHIC] [TIFF OMITTED] 34698.280
    
    [GRAPHIC] [TIFF OMITTED] 34698.281
    
    [GRAPHIC] [TIFF OMITTED] 34698.282
    
    [GRAPHIC] [TIFF OMITTED] 34698.283
    
    [GRAPHIC] [TIFF OMITTED] 34698.284
    
    [GRAPHIC] [TIFF OMITTED] 34698.285
    
    Senator Coburn. Thank you.
    Well, we will proceed with some questions now. I have a 
limited number of questions for each of you. There will be no 
time contingency in terms of how you answer them. They are 
fairly general questions, but it will give me a feel and an 
opportunity to get to know you a little bit better.
    I am going to begin with Ms. Fischer, if I might. Your 
legal career has really encompassed a broad mix of civil and 
legal work, particularly focusing on trial work.
    Would you share with us how your experiences have prepared 
you to serve as a U.S. judge?
    Ms. Fischer. Thank you, Mr. Chairman, for that question. As 
you know from your review of my resume, I have been practicing 
law in Western Pennsylvania, and also in West Virginia, I might 
add, the last 30 years. I have covered a broad range of cases 
in both State and Federal work. Early on I handled a number of 
civil rights and employment cases, for example, in the Federal 
district court.
    I think that the mix of skills that I have learned, the 
ability to look at cases, analyze the facts and then apply the 
law, I think I can carry that into the judiciary, if I should 
be so fortunate. Further, as it has been indicated, I have some 
training in mediation, arbitration, and alternate dispute 
resolution. It would be my hope to bring those skills to the 
table as well.
    Senator Coburn. You just answered my next question. I 
actually consider that to be a tremendous asset, because what 
that means, as you recognize in mediation and alternate dispute 
resolution, is you are a trusted advocate for fairness. I think 
that is a tremendous compliment to you.
    When we see 1,500 cases per judge, if they go to trial, 
that is an impossibility in our judicial system today. So 
mediation, and actually the concept of reconciliation, 
reconciling two people apart or two parties to a common 
denominator, is a key factor.
    In your mind, of all the judges you have been in front of, 
what are the qualities that you are most impressed with that 
makes a good judge?
    Ms. Fischer. First, Mr. Chairman, I would say that the 
judges who I admire are fair-minded and open, listening to both 
sides of the case, sometimes more than two sides of the case. 
Certainly hardworking, people who spend the time, the energy to 
learn the facts of the case and the parties to do justice.
    In addition to that, I think that the people that I most 
admire are those who welcome the citizens into their courtroom 
and provide an atmosphere, a fairness, even- handedness, and 
integrity as they address cases.
    Senator Coburn. Thank you.
    I am going to ask each of you this question. You do not 
have the advantage of having it heard it prior to coming up. I 
am not a lawyer. I am a physician/businessman. As all of you 
know, judges have become a political issue, which I think is 
much to the detriment of our country.
    There is a difference between political ideology and 
judicial philosophy. I do not think anybody ought to have to 
explain their political ideology, but would you care to explain 
what you see as a proper judicial philosophy?
    Ms. Fischer. Thank you, Mr. Chairman, for that question. I 
know that it is an important question. As a Federal district 
court judge, if I should be so fortunate to become one, I would 
have to address the facts of the case and apply the law.
    As any sitting judge in the Western District, or in any 
other district court, I would first have to look to precedent. 
In that vein, I would look to the Third Circuit, and certainly 
to the Supreme Court, as precedent. From that, then I would 
proceed to make the rulings that would be required in a case on 
a case-by-case basis.
    Senator Coburn. All right. And you recognize, your 
authority comes from the Constitution, the statutes, and the 
treaties of this country, as well as stare decis?
    Ms. Fischer. Certainly.
    Senator Coburn. And nothing else.
    Ms. Fischer. That is the basis.
    Senator Coburn. As far as the authority for the basis of 
your opinions.
    Ms. Fischer. That would be correct.
    Senator Coburn. All right. Thank you.
    Judge Frizzell, you have served in the State of Oklahoma as 
a judge for 9 years. First of all, let me thank you for doing 
that. Given your service on the bench, you have some insight 
about the roles that judges play. Can you kind of share with us 
your thoughts on the role of the judiciary in our tri-part 
government?
    Judge Frizzell. Yes, sir. Having tried some 185 or so 
cases, I have found that the judiciary, the judge, playing a 
central role in the trial of cases, first of all, has to be 
extremely courteous. The judge sets the tone in the courtroom. 
So, courtesy, humility, and I think restraint, first and 
foremost.
    Obviously, restraint in following stare decis, restraint in 
recognizing that addressing a case in controversy, one must 
limit one's self to the case before the judge and utilize those 
tools that are applicable and can resolve the case and not 
going beyond.
    Senator Coburn. How do we promote more cases into 
reconciliation rather than trial?
    Judge Frizzell. Clearly, alternative dispute resolution--
fortunately, in Tulsa, as you know, Mr. Chairman, we have on 
the State level an actively-used municipal early settlement 
procedure that we use quite a bit. I personally referred a lot 
of cases there a lot of times, because parties simply want to 
be heard.
    They want to make their case, and many times by presenting 
their case to a mediator they have that catharsis and are able 
to get an impartial evaluation regarding the strength of their 
case. So, mediation is absolutely essential, as you have 
previously mentioned.
    In addition, the Northern District of Oklahoma has an 
active process. The Magistrate Judge who is in charge of that 
was my co-clerk for Judge Brett, Magistrate Judge Paul Cleary, 
and he is doing an excellent job.
    Senator Coburn. All right. Thank you.
    Judge Frizzell, for 9 years you have been involved with the 
local chapter of the American Ends of Court, which, as you 
know, is an organization dedicated to improving the skills, 
professionalism, and ethics of the bench and bar.
    Can you tell me how your experience has shaped your skills 
as a judge and how you will apply those skills during your 
service, should you so be confirmed to the district court?
    Judge Frizzell. I think in three ways, Mr. Chairman. First 
of all, as you know, the American Ends of Court is designed to 
promote civility amongst the bench and amongst the bar. They do 
so by dining together, breaking bread together once a month, 
which fosters relationships.
    Second, through education. Each month we have a 
presentation made by one of the people groups, and one that 
always, if you keep your ears open, you can pick up tips on how 
to address a lawsuit and how the administration of justice 
ought to be performed.
    I think, third, I have dived head-first into the idea of 
mentoring. I think we have lost in the American legal system 
because recently you see many people from law school going into 
solo practice and not going into law firms.
    It is essential that they have mentors. Just last week I 
started up with a new mentee, who is a private practitioner who 
has just a few years of experience and is a solo practitioner 
in the criminal area.
    Senator Coburn. You have done a lot of pro bono work for 
both the Tulsa Speech and Hearing Association, as well as for 
indigent Tulsans through the Rotary Club. If it is appropriate, 
or would it be appropriate for you, and if so, how would you 
use your experience in pro bono work to increase the amount of 
pro bono work that is done by the bar that sits before you?
    Judge Frizzell. I know that on the State bench we have 
attempted to increase the amount of pro bono work done for 
individuals participating or who otherwise would be pro se 
before the courts.
    I, frankly, do not know whether the Northern District of 
Oklahoma promotes--excuse me. I do. But in the area of criminal 
practice, because I was a member of the board at one point in 
private practice, we had an adjunct board where we represented 
criminal defendants. So, we do promote that in the Northern 
District of Oklahoma.
    Senator Coburn. Thank you.
    Then to my final question: judicial philosophy.
    Judge Frizzell. Yes, sir. I think, first of all, the 
linchpin is that of judicial restraint, as I previously 
alluded. One must not use the totality of powers that a judge 
is given. It is much like being a parent; you do not want to go 
beyond that which is necessary to resolve a particular case. I 
think, obviously, firm adherence to the doctrine of stare decis 
and unfailing courtesy.
    Senator Coburn. All right. Thank you.
    Judge O'Neill. A really interesting career. You should be 
proud. You have had a varied career. You worked as an advocate, 
then on the State bench, and now recently as a Federal 
magistrate judge for the same court. Probably a lot of this 
work has been falling on you anyway, I would imagine. How about 
all of those experiences, and how does that fit with making you 
a great Federal judge?
    Judge O'Neill. I think starting out as an advocate, that 
being a lawyer, makes you understand that there are judges you 
like to come before and judges you would prefer never to be 
before again. I think that it is important for a judge to 
remember those experiences so you are the type of judge that 
people want to appear before again and again.
    With regard to the State court, I handled more than 2,000 
criminal cases. You mentioned earlier the part about mediation. 
That is a good part of what occurs every day in the criminal 
field, as well as the civil field. I ran that calendar for 
several years at the end of my State years on the Superior 
Court.
    Moving then into the Federal court, I handled, and have 
continued to handle, settlement conferences on a weekly basis. 
Sometimes it is the traditional settlement conference, 
sometimes it is mediation, sometimes it is a hybrid. But all of 
those things, coupled with more than 500 trials that I have 
handled, I believe, make me ready for this position.
    Finally, when you mention that perhaps I am handling some 
of the cases now that I will be handling, that is a true 
statement. As you know, in the Federal court a magistrate judge 
can handle a case sitting as a district court judge with the 
consent of all parties. The consent rate for me is in excess of 
90 percent. So for the past, almost 8 years, on the civil side 
of it, I have been acting as a district court judge.
    Senator Coburn. That is great.
    You have been recognized also as well for your pro bono and 
community service activities, including your service for the 
Fresno County Mock Trial competition, and other teaching 
activities.
    Can you describe these activities for the committee, what 
you have done?
    Judge O'Neill. Yes. Generally it is junior high school and 
high school, and it is almost not ever grammar school level. I 
am invited back to the junior high school level to teach six to 
eight classes per year, either on the first day that they are 
going to be handling the Constitution, or the last day that 
they are handling the Constitution.
    As far as the high school level is concerned, I teach the 
Advanced Placement review course for the Government class, 
specifically the courts and the Constitution arena, and in 
between all of that, a lot of speeches.
    I think that judges, from time to time, as best we can, 
need to get out of our chambers and out of our courtrooms and 
into the public to explain what we do, because so many people 
do not know.
    Senator Coburn. Right. Right.
    Do you plan on continuing that work, should you be 
confirmed?
    Judge O'Neill. I absolutely do.
    Senator Coburn. Yes. The key to that is making sure the 
public has confidence in our judiciary, and I think you are 
right on.
    Judge O'Neill. And if they do not know what we do, there is 
no way they can have that confidence.
    Senator Coburn. Right.
    And how about the answer to my question on judicial 
philosophy?
    Judge O'Neill. There are several things that I think a 
judge must do. First, is to be prepared, to have read not just 
the briefs, but the law, to be ready to proceed with that case 
before you come out on the bench.
    Second, to be efficient with your time. If you waste time 
or have people waste time in your courtroom, you do not have 
time to give the people at the end of the calendar the same 
type of listening that you need to do in every case.
    Civility is absolute. It is an absolute requirement for a 
judge. I think that ultimately people need to come into your 
courtroom knowing that you are going to apply the law as it is. 
Not how you might think it should be, not just on the things 
that you agree with, but apply the law as it is.
    The only way you are ever going to do that as a judge is to 
recognize that there are three branches of government, and that 
means something. That is not just a convenience, it is the law 
itself.
    Senator Coburn. Thank you.
    Ms. Wood, a similar question. You have had broad 
experience, both in terms of civil and criminal work, and 
prosecutorial work. How has that prepared you to be a Federal 
judge?
    Judge Wood. Well, Senator, I think it puts me in a unique 
position of having been able to see the Federal district court 
from just about every angle possible, beginning with behind the 
scenes as a law clerk, and to see the decisional process and 
how that goes on, then next as a private practitioner 
representing civil plaintiffs and defendants, and also 
defending accused people who have been brought to the court, 
then as a county magistrate court, to pass on issues regarding 
search and seizure and arrest warrants, and so forth, then, 
finally, as the U.S. Attorney, to represent the United States 
in civil and criminal matters.
    So, I get to see from all those vantage points how crucial 
it is for the members of the Federal judiciary to be honest, 
fair, hardworking, patient, and humble.
    Senator Coburn. Thank you.
    Speaking of your role as a U.S. Attorney in the Southern 
District of Georgia, what would you outline or lay out for us 
that are your major accomplishments as a U.S. Attorney there?
    Judge Wood. Senator, I have been U.S. Attorney for 
approximately 2 years. I was confirmed in 2004. During that 
time our office has increased its productivity, and last year 
we had the most productive year that we have ever had in terms 
of pursuing criminal defendants resulting in convictions, and 
complex cases that we have been able to pursue. This year, as 
well, we are track to best that. I also think that the morale 
in our office is good, and that affects everyone's work ethic.
    I guess, lastly, I would say, touching on something that 
Judge O'Neill mentioned, and that is the public face of the 
office. I agree with him that, as public servants, we need to 
let the public know what we are doing. Our buildings of justice 
stand only so much as we have public confidence and that they 
trust us.
    So I spend a lot of time going to schools, elementary 
schools up to colleges and law schools, going to civic clubs 
and groups, and telling them about what the Federal law 
enforcement initiatives are and what we are doing in our part 
of the world to accomplish those.
    Senator Coburn. Great.
    Then to my last question about judicial philosophy? Judge 
Wood. My judicial philosophy is fairly simple. I think it is 
important to understand the role that a Federal district Judge 
plays within the larger system within the three branches of 
government and within the appellate system itself.
    As a district court judge, I am bound to apply the 
precedent of the 11th Circuit Court of Appeals in my State, and 
the U.S. Supreme Court. My task will be to discern the facts as 
fairly as I can and to research and discover the law as 
diligently as I can. If I were to be fortunate enough to be 
confirmed, that is what I would do every day of my career.
    Senator Coburn. All right. Thank you.
    I have just one final question for each of you. It is 
something that you see reflected here in the U.S. Congress. The 
difference is, we are not appointed for life, although we might 
act like it.
    [Laughter.]
    What will each of you do in your personal life to have a 
check or balance so that the position of a lifetime appointment 
and the power that comes with that will be moderated, 
influenced, or a Governor put on so that our normal human 
nature of being approached to ourselves of significance, will 
never get in the way of your decisions as a U.S. district court 
judge.
    Ms. Fischer?
    Ms. Fischer. Thank you.
    Senator Coburn. And by the way, I will give you an out. My 
balance is my wife. She cuts me down all the time and puts me 
right back where I belong.
    Ms. Fischer. Thank you, Mr. Chairman, for that question. I 
could echo the same. I would say that my husband Don certainly 
adds balance to my life, as do my children. In fact, my 
husband, who happens to be a physician, such as the Chairman, 
makes sure that I get exercise. I was 25 years old when he 
started to teach me how to swim, and I am still learning. I am 
getting there.
    But in addition to that, I think in approaching my every 
day, I would expect to approach the matters at hand, if you 
will, with the same kind of evenness, if you will, that I 
currently have in my law firm practice where I work with a team 
of younger associates and partners, paralegals and staff.
    We know when to crack a joke. We know when to celebrate 
somebody's success. We support each other. I think I would take 
those same kinds of attributes, if you will, to the bench if I 
would be so fortunate to be appointed and committed to the 
bench.
    Senator Coburn. Judge Frizzell?
    Judge Frizzell. Thank you, Mr. Chairman. Obviously that is 
a critical question with this particular job. I would echo Ms. 
Fischer's statement, substituting my wife for her husband, and 
the children. Obviously that keeps one humble.
    In addition, I have tried to operate on the ``bathroom 
mirror'' philosophy. I want to be able to look myself in the 
mirror the next day without any second thoughts. That has kind 
of helped me through nearly 10 years of service on the State 
bench. I think, as Ms. Fischer says, you have got to keep 
active, you have got to keep exercising. With the YMCA right 
across the street, I use that often.
    Senator Coburn. Judge O'Neill?
    Judge O'Neill. One of the finest judges I have met, who is 
now deceased, his name was Hollis G. Best, and he was the 
presiding Justice of the Fifth district court of Appeals in 
California.
    When I first got appointed by the Governor of the State of 
California to the Superior Court, before I was sworn in he took 
me to lunch and he said, ``The best judges focus in on 
responsibility and not on power.'' That is a philosophy that I 
have followed since the first day some 17 years ago.
    Second, I, too, have a spouse who, in one word, can put me 
back where I need to be from time to time. That one word is: 
overruled.
    [Laughter.]
    Senator Coburn. Great answer.
    Ms. Wood?
    Judge Wood. Thank you, Senator. I, too, have a spouse that 
keeps me in check. We serve that role for each other. My 
parents taught me that you shine brightest when you are 
polishing others, and I would take Judge Alaimo's cue and speak 
softly and listen hard.
    Senator Coburn. Well, thank you each very much. The 
Chairman will make a determination of when you will come on the 
business calendar. I appreciate you responding on short notice 
to this hearing. We are trying to accomplish your nominations 
through.
    I must say, each of you are impressive in your own right. 
It is a reflection on the legal profession in this country, as 
well as our system of government, that we see such quality 
individuals before us.
    The record will remain open for one week should you want to 
amend or add anything to what you might have said.
    With that, the hearing is adjourned.
    [Whereupon, at 3:00 p.m. the hearing was adjourned.]
    [Submissions for the record follow.]
    [GRAPHIC] [TIFF OMITTED] 34698.286
    
    [GRAPHIC] [TIFF OMITTED] 34698.287
    
    [GRAPHIC] [TIFF OMITTED] 34698.288
    
    [GRAPHIC] [TIFF OMITTED] 34698.289
    
    [GRAPHIC] [TIFF OMITTED] 34698.290
    
    [GRAPHIC] [TIFF OMITTED] 34698.291
    
    [GRAPHIC] [TIFF OMITTED] 34698.292
    
    [GRAPHIC] [TIFF OMITTED] 34698.293
    
    [GRAPHIC] [TIFF OMITTED] 34698.294
    
    [GRAPHIC] [TIFF OMITTED] 34698.295
    
    [GRAPHIC] [TIFF OMITTED] 34698.296
    
    [GRAPHIC] [TIFF OMITTED] 34698.297
    
    [GRAPHIC] [TIFF OMITTED] 34698.298
    
    [GRAPHIC] [TIFF OMITTED] 34698.299
    
    [GRAPHIC] [TIFF OMITTED] 34698.300
    
    [GRAPHIC] [TIFF OMITTED] 34698.301
    


 NOMINATIONS OF ROBERT JAMES JONKER, NOMINEE TO BE DISTRICT JUDGE FOR 
  THE WESTERN DISTRICT OF MICHIGAN; PAUL LEWIS MALONEY, NOMINEE TO BE 
  DISTRICT JUDGE FOR THE WESTERN DISTRICT OF MICHIGAN; JANET T. NEFF, 
NOMINEE TO BE DISTRICT JUDGE FOR THE WESTERN DISTRICT OF MICHIGAN; AND 
    LESLIE SOUTHWICK, NOMINEE TO BE DISTRICT JUDGE FOR THE SOUTHERN 
                        DISTRICT OF MISSISSIPPI

                              ----------                              


                      TUESDAY, SEPTEMBER 19, 2006

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, Pursuant to notice, at 3:07 p.m., in 
room 226, Dirksen Senate Office Building, Hon. Sam Brownback, 
presiding.

 OPENING STATEMENT HON. SAM BROWNBACK, A U.S. SENATOR FROM THE 
                        STATE OF KANSAS

    Senator Brownback. The hearing will come to order.
    Thank you all for joining us today. We have a confirmation 
hearing for several highly qualified individuals nominated by 
President Bush to serve on district courts in Michigan and 
Mississippi.
    The nominees include the following four individuals: Robert 
James Jonker, who has been nominated to be U.S. district Judge 
for the Western District of Michigan; Judge Paul Lewis Maloney, 
who has also been nominated to be U.S. district Judge for the 
Western District of Michigan; Judge Janet Neff, similarly 
nominated to be U.S. district Judge for the Western District of 
Michigan; and, finally, Judge Leslie Southwick, nominated to be 
U.S. district Judge for the Southern District of Mississippi.
    On behalf of the Committee I want to welcome all of the 
nominees, you and your families. You have traveled a great 
distance to be here today. I appreciate your willingness to 
appear before us. It is quite a day. This is as big deal, as 
they would put it, to go through a nomination hearing, and 
hopefully a confirmation process, to be confirmed to be a 
Federal judge.
    We have in attendance today several Senators from the home 
States of these fine attorneys. I will leave it to my 
colleagues to discuss their superb qualifications and to vouch 
for their fitness to serve on the bench. I am delighted that 
you are here.
    Since my Ranking Member is not present, I will go to the 
individual Senators to speak for their nominees.
    We have in panel one Hon. Thad Cochran, my Chairman on the 
Appropriations Committee who I have been delighted to serve 
with; from Mississippi, Hon. Trent Lott, a dear friend, the 
Senator from Mississippi. I understand that Senator Levin may 
be coming later, but is not here yet; and Hon. Debbie Stabenow, 
a U.S. Senator from Michigan.
    We will go in the order of seniority, as that is the way 
this place operates. So, Senator Cochran, I will go with you 
first. I am delighted that you are here to discuss your 
nominee.

  PRESENTATION OF LESLIE H. SOUTHWICK, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE SOUTHERN DISTRICT OF MISSISSIPPI, BY HON. THAD 
     COCHRAN, A U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Cochran. Mr. Chairman, thank you very much.
    I am pleased to introduce to you and the Committee Leslie 
H. Southwick, and to recommend to the Committee his 
confirmation as a U.S. district court judge for the Southern 
District of Mississippi.
    I have known Leslie for about 30 years. He is well 
qualified by his temperament, his intelligence, his education, 
and experience to serve as a U.S. district court judge.
    During his distinguished career he has demonstrated a keen 
knowledge of the law as a lawyer and a judge. He will reflect 
credit, in my opinion, on the Federal judiciary. I am glad to 
notice that his daughter Cathy is representing his family and 
is here today to be with him on this special occasion.
    Leslie was born and educated in Texas, but he has deep 
roots in Mississippi. He came to the State in 1976 to serve as 
a law clerk to U.S. Court of Appeals Judge Charles Clark, who 
served at that time on the Fifth Circuit Court of Appeals.
    Leslie had graduated Cum Laude from Rice University in 
1972. He then entered the University of Texas School of Law, 
graduating in 1975. Following law school graduation, he clerked 
for Chief Judge John Runyan, Jr. on the Texas Court of Criminal 
Appeals in Austin, and then he came to practice law in Jackson, 
Mississippi with the firm of Bernini, Grantham, Grauer & 
Hughes.
    I was practicing law in Jackson at the time and I came to 
know him very soon as a keen intellectual, thoughtful, 
personable member of our Bar. He became a respected member of 
the Bar on a wide range of legal issues.
    He served as Deputy Assistant Attorney General in the Civil 
Division of the U.S. Department of Justice. He supervised there 
125 lawyers of the Federal Programs Branch. He also supervised 
the Office of Consumer Litigation, a 25-lawyer division charged 
with civil and criminal enforcement of Federal consumer laws.
    In November 1994, Leslie was elected to serve on the 
Mississippi Court of Appeals. He served there with distinction. 
I read some of his opinions and followed his career there on 
the appellate bench. He has been one of the most respected 
judges in that court.
    Then he was called to serve as a Staff Judge Advocate for 
the 155th Armored Combat Brigade of the Mississippi National 
Guard. He was deployed to Iraq. He served there with 
distinction. He has become the citizen soldier, and he has 
distinguished himself by answering the call to duty and for 
this mobilization in support of Operation Iraqi Freedom.
    He has been an Adjunct Professor at the Mississippi College 
School of Law, where he taught courses in administrative law, 
consumer law, evidence, statutory interpretation, and judicial 
history. He has also served as an instructor at the U.S. 
Military Academy at West Point.
    He has written several legal and historical articles, been 
published in the Mississippi Law Journal, the Mississippi 
College of Law Review, the Wall Street Journal, and other 
journals and magazines.
    He is the author of Presidential Also-Rans and Running 
Mates, a historical discussion of the American candidates for 
presidents and vice presidents. It won the American Library 
Association's Best Reference Book of the Year Award in 1985.
    He has enjoyed politics. He has been active in the 
political life of our State and we are very proud of him. Few 
decisions made by a U.S. Senator have a farther-reaching effect 
than the recommendation to a president of an individual to 
serve on the Federal bench.
    I am confident that Senator Lott and I have made a good 
decision in recommending Leslie Southwick to President George 
W. Bush to serve on the Federal bench. I am pleased the 
President submitted his name to the Senate for consideration, 
and he deserves to be confirmed by the Senate.
    Senator Brownback. Thank you very much, Senator Cochran.
    Senator Lott, welcome.

  PRESENTATION OF LESLIE H. SOUTHWICK, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE SOUTHERN DISTRICT OF MISSISSIPPI, BY HON. TRENT 
       LOTT, A U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Lott. Thank you, Senator Brownback, for having this 
timely hearing. I would like to ask that my statement be 
submitted for the record in its entirety.
    Senator Brownback. Without objection.
    [The prepared statement of Senator Lott appears as a 
submission for the record.]
    Senator Lott. A lot of it is discussion about the resume 
and the history of this very fine nominee. I am quite pleased 
to be here and to recommend his nomination to the President. I 
just wanted to come and vouch for the character of the man. I 
think that is important, too.
    While his resume is obviously extremely impressive, his 
reputation goes way beyond his legal qualifications, his 
educational background, his involvement in public service, his 
writing ability, his military career. He has an outstanding 
record, but he also has a reputation of just being a fine man 
of very good temperament.
    I believe that people, the Senate, looks for that in a 
nominee. I doubt that we have had many nominees for the 
Southern District of Mississippi, or anywhere in Mississippi 
for that matter, that exceeded the qualifications of this 
nominee.
    I focused on two things in particular, his experience there 
on the Mississippi Court of Appeals where he served as a 
presiding judge for several years, 1999 to 2004, and he amassed 
a very outstanding record in that position.
    Also, the fact that he chose, at a particular point in his 
life, to go into the U.S. Reserves and then transfer to the 
Mississippi National Guard and serve as lieutenant colonel and 
Staff Judge Advocate of the 155th Brigade. He served in Iraq, 
where, when I asked him, ``How did it go?'' he said, ``Well, it 
was character building.'' I suspect that was the most 
diplomatic way he could describe his experience there.
    So this really is a unique nominee. He has shown great 
wisdom, Mr. Chairman, beyond that, having been born in Texas. 
He graduated Cum Laude from Rice University and attended the 
University of Texas School of Law, and clerked there for the 
Texas Court of Criminal Appeals.
    He had the wisdom for to then become a law clerk for one of 
the finest judges I have ever known in my life, Fifth Circuit 
Court of Appeals Chief Judge Charles Clark, in Jackson.
    After that experience, having lived in Jackson, 
Mississippi, he then went to one of the finest law firms in the 
State and has chosen to live in Mississippi from that day till 
this, showing the great wisdom of this nominee in choosing the 
place where he lives, Mississippi. We are proud of him. We 
believe he will make an excellent Federal judge. I am delighted 
to be here and vouch for his candidacy for this position.
    Senator Brownback. Thank you very much. I thank my 
colleagues for their statements in support of the nominee from 
Mississippi, an outstanding nominee and fantastic statements in 
support.
    If my colleagues need to excuse themselves, that is 
certainly understandable. If you would like to stay, we would 
love to have your presence. But we will proceed now to Senator 
Stabenow and the discussion of the Michigan nominees that we 
have on the panel.

 PRESENTATION OF PAUL MALONEY, JANET NEFF, AND ROBERT JONKER, 
  NOMINEES TO BE DISTRICT JUDGES FOR THE WESTERN DISTRICT OF 
  MICHIGAN, BY HON. DEBBIE STABENOW, A U.S. SENATOR FROM THE 
                       STATE OF MICHIGAN

    Senator Stabenow. Well, thank you, Senator Brownback. It is 
my great pleasure today to be here. I thank you for holding 
this hearing on the nominations of Judge Paul Maloney, Judge 
Janet Neff, and Robert Jonker to the U.S. district court for 
the Western District of Michigan.
    Let me start by indicating that Senator Levin had fully 
intended to be here. He is speaking on the floor at this moment 
and asked me to submit his written testimony for the record. He 
is in full support of all three nominees. If it is possible, he 
will be here. If not, certainly it is not because of lack of 
support for the nominees. So, I would submit that.
    Senator Brownback. His full statement will be submitted to 
the record.
    Senator Stabenow. Thank you.
    [The prepared statement of Senator Levin appears as a 
submission for the record.]
    Senator Stabenow. And in addition to introducing them, I 
want to indicate that all three of them bring distinguished 
legal careers to the Federal bench, and their resumes are 
impressive.
    In the interest of time, because I want you to have an 
opportunity to hear from them directly, I will not go into 
extensive discussion of each of their resumes, except to say 
that we are very proud of them in Michigan.
    Judge Paul Maloney has served as a Circuit judge on the 
Berrien County Trial Court for almost 10 years. Judge Maloney 
also brings a wealth of public service experience to the bench, 
including working as a Berrien County prosecutor, a Deputy 
Assistant Attorney General in the Department of Justice, and as 
Chairman of the Michigan Sentencing Commission. I want, 
personally, to welcome Judge Paul Maloney to the Senate hearing 
today.
    Judge Janet Neff has served as a judge on the Court of 
Appeals for the Third District of Michigan for almost 17 years. 
In addition to her very distinguished career on the bench, 
Judge Neff has been an active leader in Grand Rapids, including 
serving as the first woman president of the Grand Rapids Bar 
Association. I would like, also, to welcome her, along with her 
husband Dave and daughter Meredith, and congratulate her on her 
nomination as well.
    Robert Jonker has been a partner at Warner, Norcross & Judd 
in Grand Rapids for almost 12 years. A lifelong Michiganian, 
Robert Jonker is a graduate of Calvin College and the 
University of Michigan Law School, and has served as a law 
clerk for U.S. district court judge John Feikens in the Eastern 
District. I would welcome Robert Jonker to the Senate today.
    Again, Mr. Chairman, these are brief overviews of what are 
three distinguished careers. We are very proud to come together 
and have worked with the White House on these nominations.
    Senator Levin and I are bringing our full support, 
enthusiastic support, for the nominees. I would also indicate 
that it would be my hope that we would move expeditiously on 
the floor on these nominations. Thank you, Mr. Chairman.
    Senator Brownback. Thank you very much, Senator Stabenow. I 
appreciate your thoughts, comments, and recommendations of 
these highly qualified nominees. I appreciate your attendance 
here today.
    Senator Stabenow. Thank you.
    Senator Brownback. We will call the second panel, the 
nominees, forward, if you would join us up front. I do have an 
oath that I would like for you to take.
    Calling forward Robert James Jonker, to be U.S. district 
Judge for the Western District of Michigan; Judge Paul Lewis 
Maloney, to be U.S. district Judge for the Western District of 
Michigan; Judge Janet T. Neff, to be U.S. district Judge for 
the Western District of Michigan; and Judge Leslie Southwick, 
to be U.S. district Judge for the Southern District of 
Mississippi.
    I would ask, if you would, to repeat after me. Hold your 
right hand up, please.
    [Whereupon, the nominees were duly sworn.]
    Senator Brownback. Thank you all. Please take your seats.
    Again, as I said at the outset, I thank you all for 
attending and being here today. This is one of the key jobs of 
the Senate, is putting people on the Federal bench. It is a 
lifetime appointment and it is an important appointment to be 
put in such a position of authority and trust.
    What I would like for each of you to do, is to give me a 
brief opening statement if you have one prepared. As you do 
that, because I recognize that families are involved in this as 
well, I would like for you to introduce your family to me and 
to the Committee as well so we can meet them and thank them 
because, while it is a lifetime commitment of you, it is also a 
lifetime commitment of theirs.
    We do not come into this world by ourselves and we do not 
stay here by ourselves, either. There are a lot of people that 
are around us that are very key and important.
    So, Mr. Jonker, I would like for you to start off. If you 
would present your testimony, but please start by introducing 
any family members you have here present with you today.

STATEMENT OF ROBERT JAMES JONKER, NOMINEE TO BE DISTRICT JUDGE 
              FOR THE WESTERN DISTRICT OF MICHIGAN

    Mr. Jonker. Well, thank you, Mr. Chairman. I appreciate 
that. I do have a great cloud of witnesses and supporters back 
in Michigan cheering me on today that were not able to be with 
me other than in spirit, and they are here that way today.
    I want to thank you, Mr. Chairman, and the entire Committee 
for convening this hearing and giving me an opportunity to 
appear before you and respond to your questions.
    I certainly want to thank, in particular, Senator Stabenow 
for personally coming today to deliver that introduction. 
Thanks to both Senator Stabenow and Senator Levin for their 
courtesies and support throughout this process.
    Of course, I do need to thank President Bush for honoring 
me in the first place with this nomination. I aim to do credit 
to that nomination, and also to the Senate's confirmation, if I 
am fortunate enough to receive that.
    [The biographical information of Robert Jonker follows:]
    [GRAPHIC] [TIFF OMITTED] 34698.302
    
    [GRAPHIC] [TIFF OMITTED] 34698.303
    
    [GRAPHIC] [TIFF OMITTED] 34698.304
    
    [GRAPHIC] [TIFF OMITTED] 34698.305
    
    [GRAPHIC] [TIFF OMITTED] 34698.306
    
    [GRAPHIC] [TIFF OMITTED] 34698.307
    
    [GRAPHIC] [TIFF OMITTED] 34698.308
    
    [GRAPHIC] [TIFF OMITTED] 34698.309
    
    [GRAPHIC] [TIFF OMITTED] 34698.310
    
    [GRAPHIC] [TIFF OMITTED] 34698.311
    
    [GRAPHIC] [TIFF OMITTED] 34698.312
    
    [GRAPHIC] [TIFF OMITTED] 34698.313
    
    [GRAPHIC] [TIFF OMITTED] 34698.314
    
    [GRAPHIC] [TIFF OMITTED] 34698.315
    
    [GRAPHIC] [TIFF OMITTED] 34698.316
    
    [GRAPHIC] [TIFF OMITTED] 34698.317
    
    [GRAPHIC] [TIFF OMITTED] 34698.318
    
    [GRAPHIC] [TIFF OMITTED] 34698.319
    
    [GRAPHIC] [TIFF OMITTED] 34698.320
    
    [GRAPHIC] [TIFF OMITTED] 34698.321
    
    [GRAPHIC] [TIFF OMITTED] 34698.322
    
    [GRAPHIC] [TIFF OMITTED] 34698.323
    
    [GRAPHIC] [TIFF OMITTED] 34698.324
    
    [GRAPHIC] [TIFF OMITTED] 34698.325
    
    [GRAPHIC] [TIFF OMITTED] 34698.326
    
    [GRAPHIC] [TIFF OMITTED] 34698.327
    
    Senator Brownback. Thank you very much.
    Judge Maloney?

 STATEMENT OF PAUL LEWIS MALONEY, NOMINEE TO BE DISTRICT JUDGE 
              FOR THE WESTERN DISTRICT OF MICHIGAN

    Judge Maloney. Thank you, Mr. Chairman. Thank you for 
conducting this hearing today on our nominations to be District 
judges for the Western District of Michigan. I am honored by 
the President's nomination to be a Federal judge, and look 
forward to answering your questions during the course of this 
hearing.
    I want to personally thank Senator Stabenow for her 
appearance this afternoon in support of our nominations. I look 
forward to your questions. Unfortunately, my family was not 
able to make it today. They are with me in spirit back in 
Michigan and assorted other places across the country, Texas 
and Pennsylvania, to be more specific.
    Thank you, Senator.
    [The biographical information of Paul Maloney follows:]
    [GRAPHIC] [TIFF OMITTED] 34698.328
    
    [GRAPHIC] [TIFF OMITTED] 34698.329
    
    [GRAPHIC] [TIFF OMITTED] 34698.330
    
    [GRAPHIC] [TIFF OMITTED] 34698.331
    
    [GRAPHIC] [TIFF OMITTED] 34698.332
    
    [GRAPHIC] [TIFF OMITTED] 34698.333
    
    [GRAPHIC] [TIFF OMITTED] 34698.334
    
    [GRAPHIC] [TIFF OMITTED] 34698.335
    
    [GRAPHIC] [TIFF OMITTED] 34698.336
    
    [GRAPHIC] [TIFF OMITTED] 34698.337
    
    [GRAPHIC] [TIFF OMITTED] 34698.338
    
    [GRAPHIC] [TIFF OMITTED] 34698.339
    
    [GRAPHIC] [TIFF OMITTED] 34698.340
    
    [GRAPHIC] [TIFF OMITTED] 34698.341
    
    [GRAPHIC] [TIFF OMITTED] 34698.342
    
    [GRAPHIC] [TIFF OMITTED] 34698.343
    
    [GRAPHIC] [TIFF OMITTED] 34698.344
    
    [GRAPHIC] [TIFF OMITTED] 34698.345
    
    [GRAPHIC] [TIFF OMITTED] 34698.346
    
    [GRAPHIC] [TIFF OMITTED] 34698.347
    
    [GRAPHIC] [TIFF OMITTED] 34698.348
    
    [GRAPHIC] [TIFF OMITTED] 34698.349
    
    [GRAPHIC] [TIFF OMITTED] 34698.350
    
    [GRAPHIC] [TIFF OMITTED] 34698.351
    
    Senator Brownback. Thank you. It is a delight to have you 
here.
    Judge Neff?

 STATEMENT OF JANET T. NEFF, NOMINEE TO BE DISTRICT JUDGE FOR 
                THE WESTERN DISTRICT OF MICHIGAN

    Jude Neff. Thank you, Senator. Thank you particularly for 
your comments with regard to the support of family, which is 
very important, as you know as someone in public life.
    I would like to introduce to you my husband of almost 35 
years, David Neff, and the younger of my two daughters, 
Meredith Neff, who is with us here from Wisconsin, where she 
lives and works. My older daughter, Genevieve, unfortunately 
could not be here. She is in law school in New York City.
    Senator Brownback. Welcome. Delighted to have you all here.
    Jude Neff. I also am appreciative of the opportunity to 
have this hearing. I am extremely grateful to Senators Levin 
and Stabenow for forwarding my name to President Bush for 
consideration and for his nomination.
    I also think it appropriate to thank the staff at the 
Department of Justice, particularly David Best and the people 
who have worked with him who have helped us so very much 
through this process, which can be a little daunting at times, 
as well as the staff of Harriet Meyers in the White House.
    They were extremely helpful to me and I am very, very 
grateful for all of the courtesies and assistance that have 
been shown me. So I am more than pleased to be here and more 
than honored to be nominated to this position. Thank you.
    [The biographical information of Janet Neff follows:] 
    [GRAPHIC] [TIFF OMITTED] 34698.352
    
    [GRAPHIC] [TIFF OMITTED] 34698.353
    
    [GRAPHIC] [TIFF OMITTED] 34698.354
    
    [GRAPHIC] [TIFF OMITTED] 34698.355
    
    [GRAPHIC] [TIFF OMITTED] 34698.356
    
    [GRAPHIC] [TIFF OMITTED] 34698.357
    
    [GRAPHIC] [TIFF OMITTED] 34698.358
    
    [GRAPHIC] [TIFF OMITTED] 34698.359
    
    [GRAPHIC] [TIFF OMITTED] 34698.360
    
    [GRAPHIC] [TIFF OMITTED] 34698.361
    
    [GRAPHIC] [TIFF OMITTED] 34698.362
    
    [GRAPHIC] [TIFF OMITTED] 34698.363
    
    [GRAPHIC] [TIFF OMITTED] 34698.364
    
    [GRAPHIC] [TIFF OMITTED] 34698.365
    
    [GRAPHIC] [TIFF OMITTED] 34698.366
    
    [GRAPHIC] [TIFF OMITTED] 34698.367
    
    [GRAPHIC] [TIFF OMITTED] 34698.368
    
    [GRAPHIC] [TIFF OMITTED] 34698.369
    
    [GRAPHIC] [TIFF OMITTED] 34698.370
    
    [GRAPHIC] [TIFF OMITTED] 34698.371
    
    [GRAPHIC] [TIFF OMITTED] 34698.372
    
    [GRAPHIC] [TIFF OMITTED] 34698.373
    
    [GRAPHIC] [TIFF OMITTED] 34698.374
    
    [GRAPHIC] [TIFF OMITTED] 34698.375
    
    [GRAPHIC] [TIFF OMITTED] 34698.376
    
    [GRAPHIC] [TIFF OMITTED] 34698.377
    
    [GRAPHIC] [TIFF OMITTED] 34698.378
    
    [GRAPHIC] [TIFF OMITTED] 34698.379
    
    [GRAPHIC] [TIFF OMITTED] 34698.380
    
    [GRAPHIC] [TIFF OMITTED] 34698.381
    
    [GRAPHIC] [TIFF OMITTED] 34698.382
    
    [GRAPHIC] [TIFF OMITTED] 34698.383
    
    [GRAPHIC] [TIFF OMITTED] 34698.384
    
    [GRAPHIC] [TIFF OMITTED] 34698.385
    
    [GRAPHIC] [TIFF OMITTED] 34698.386
    
    [GRAPHIC] [TIFF OMITTED] 34698.387
    
    [GRAPHIC] [TIFF OMITTED] 34698.388
    
    [GRAPHIC] [TIFF OMITTED] 34698.389
    
    Senator Brownback. Thank you. Welcome here.
    Judge Southwick?

STATEMENT OF LESLIE SOUTHWICK, NOMINEE TO BE DISTRICT JUDGE FOR 
              THE SOUTHERN DISTRICT OF MISSISSIPPI

    Judge Southwick. Senator, I appreciate your chairing this 
hearing today. I think you opened with the phrase, and if you 
do not mind my borrowing it, that this is a very big deal today 
to have this hearing and to have the opportunity to discuss 
whatever comes to the committee's and your mind regarding our 
background.
    I am honored beyond, I think, her understanding, that my 
daughter Cathy has joined us today. She flew up from Houston 
early this morning. It required her getting up at 3:30 in the 
morning to catch a 5:30 flight, and that is doing it for the 
team. Thank you, Cathy.
    Senator Brownback. Cathy, thank you. And we have extra 
coffee if you need it.
     [Laughter.]
    Welcome. Delighted you are here.
    Judge Southwick. Her mother is back in our hometown, 
Jackson. My wife's mother has been ill and she is helping out 
with her. We have one more child, Philip, who is an architect 
in Austin who is doing his client's business today. I respect 
all of their decisions, and I am glad Cathy is here.
    Also with me today, coincidentally--he told me he flew up 
just for the occasion and I will accept that--is Andy Taggert, 
who is out in the audience. He is a supervisor from a county 
just north of Jackson and is one of the outstanding leaders in 
Mississippi political life today, and an outstanding lawyer as 
well.
    I want to thank the committee, but I want to thank two 
Senators in particular who have addressed you already, Senators 
Cochran and Lott. They have been stalwarts in my support 
through this process and I am extraordinarily pleased to have 
their support. President Bush's nomination of me is an honor 
that almost goes beyond description. So with my personal 
comments, I am ready for whatever questions you might have.
    [The biographical information of Leslie Southwick follows:]
    [GRAPHIC] [TIFF OMITTED] 34698.390
    
    [GRAPHIC] [TIFF OMITTED] 34698.391
    
    [GRAPHIC] [TIFF OMITTED] 34698.392
    
    [GRAPHIC] [TIFF OMITTED] 34698.393
    
    [GRAPHIC] [TIFF OMITTED] 34698.394
    
    [GRAPHIC] [TIFF OMITTED] 34698.395
    
    [GRAPHIC] [TIFF OMITTED] 34698.396
    
    [GRAPHIC] [TIFF OMITTED] 34698.397
    
    [GRAPHIC] [TIFF OMITTED] 34698.398
    
    [GRAPHIC] [TIFF OMITTED] 34698.399
    
    [GRAPHIC] [TIFF OMITTED] 34698.400
    
    [GRAPHIC] [TIFF OMITTED] 34698.401
    
    [GRAPHIC] [TIFF OMITTED] 34698.402
    
    [GRAPHIC] [TIFF OMITTED] 34698.403
    
    [GRAPHIC] [TIFF OMITTED] 34698.404
    
    [GRAPHIC] [TIFF OMITTED] 34698.405
    
    [GRAPHIC] [TIFF OMITTED] 34698.406
    
    [GRAPHIC] [TIFF OMITTED] 34698.407
    
    [GRAPHIC] [TIFF OMITTED] 34698.408
    
    [GRAPHIC] [TIFF OMITTED] 34698.409
    
    [GRAPHIC] [TIFF OMITTED] 34698.410
    
    [GRAPHIC] [TIFF OMITTED] 34698.411
    
    [GRAPHIC] [TIFF OMITTED] 34698.412
    
    [GRAPHIC] [TIFF OMITTED] 34698.413
    
    [GRAPHIC] [TIFF OMITTED] 34698.414
    
    [GRAPHIC] [TIFF OMITTED] 34698.415
    
    [GRAPHIC] [TIFF OMITTED] 34698.416
    
    [GRAPHIC] [TIFF OMITTED] 34698.417
    
    [GRAPHIC] [TIFF OMITTED] 34698.418
    
    [GRAPHIC] [TIFF OMITTED] 34698.419
    
    [GRAPHIC] [TIFF OMITTED] 34698.420
    
    [GRAPHIC] [TIFF OMITTED] 34698.421
    
    [GRAPHIC] [TIFF OMITTED] 34698.422
    
    [GRAPHIC] [TIFF OMITTED] 34698.423
    
    [GRAPHIC] [TIFF OMITTED] 34698.424
    
    [GRAPHIC] [TIFF OMITTED] 34698.425
    
    Senator Brownback. Thank you. And congratulations on each 
of you being moved thus far.
    I have got some questions I would like to ask, and we can 
go down the row if you would like. But one I would like to ask 
you about is just a thought or your opinion on this topic. 
Three of you are judges. Mr. Jonker, I believe you have clerked 
for a judge.
    Just this notion of judicial restraint has been one where 
we are seeing a lot more conflict. I call it at times 
``tectonic plates'' moving back against each other as far as 
the legislative and executive pushing against the judicial.
    I asked John Roberts, during his confirmation hearing, what 
is the check and balance on the judiciary? His answer was, 
judicial restraint. An appropriate answer. But it needs, then, 
further definition. How do you determine whether or not this is 
a topic that the judiciary should not be involved in, that the 
judiciary should show restraint on?
    I would just appreciate a thought, as you look at the topic 
of judicial restraint and you have a case coming in front of 
you, that this is a questionable area whether or not the 
judiciary should cover it or not, what goes on in your mental 
processes as your determination of whether this is something 
subject to a Federal court to review or not? Mr. Jonker?
    Mr. Jonker. Thank you, Senator. I think the first place 
that I begin when I think about judicial restraint is with the 
text of Article 3 of the Constitution itself, which plainly 
limits the judicial power to cases and controversies that come 
before it.
    And out of that language, as I know the Senate Committee 
understands and realizes, a great variety of justifiability 
doctrines have evolved which I think require the judge to 
carefully examine whether the particular issue that has come 
before him or her is properly conceived for judicial 
determination.
    I think after you go through those justifiability tests, 
you also have the statutory jurisdiction gateways that this 
body puts in place which further limit and restrain what the 
judiciary does.
    Of course, any policy choices that the Congress makes and 
embodies in legislative enactment must always constrain the 
judge in his or her role, because it is certainly not the 
judge's role to impose personal predilections of his or her 
own. Then, finally, you have the great body of case law that I 
think constrains every judge who is rendering a decision.
    Senator Brownback. Why is this an issue now? Why is this 
coming up more and more at this point in time in history than, 
say, over the past 50 years? Or perhaps it has been coming up 
that much and I have just not been as aware of it. But do you 
have a thought on that?
    Mr. Jonker. Well, I do think there has been, probably since 
the founding of the Republic, inherent tension between the 
different branches of government, because I think the Founders 
did wisely build that into the structure of things.
    I think at times when we are all cognizant of public policy 
issues that are coming before the country, where there are 
strong feelings on either side, that it is only natural that 
the various bodies of government would push and pull next to 
each other. I think that will always be a part of the process 
and I think it would be incumbent on whoever has the honor of 
being a judge.
    If the Senate so confirms that on me, to always remember 
that in the midst of that tension, it is the legislature that 
makes the policy choices and it is the judge who applies them, 
regardless of whether the judge agrees with them. I do pledge 
to you that that is what I would do, if I am fortunate enough 
to be confirmed.
    Senator Brownback. Judge Maloney?
    Jude Maloney. Thank you, Senator. To answer your second 
question first, I think the discussion and the public debate on 
this particular issue is part of a healthy debate about the 
relationship between the three branches of government, the 
executive, the legislative, and the judicial branch of 
government.
    I think in terms of cases that come before the trial court, 
as Mr. Jonker has already indicated, the doctrines of 
justiciability are very important to first examine whether this 
is a case in controversy that requires the judicial branch of 
government to get involved.
    Once having determined that, then the issue is, in my 
judgment, applying the law as it is given to us by the 
legislative branches of government, the executive branch of 
government, and the policymaking branches of the government, 
apply the law as written based on the law as it is given to us, 
both in statute and in case law, and apply the precedent and 
follow the dictates of the precedent to render a decision in 
the case. If I am confirmed by the Senate, that would be the 
approach I would take.
    Senator Brownback. Judge Neff?
    Jude Neff. Thank you, Senator. I think probably the watch 
word for judicial restraint, and indeed for most of judicial 
work, is intellectual honesty. If we have to look at the 
narrowness of the question in front of us, if we look to 
legislative guidelines, if we look to precedent honestly, and 
intellectually honestly view what is in front of us, that is 
ultimately, in my view, the restraint on the judge. The judge 
has got a role to play in our system.
    The fact that there is, as Mr. Jonker has indicated, 
longstanding tension built into our system, and it is healthy, 
I think, and it is something that we struggle with all the time 
as a country, and it has, I think, made us healthier. It has 
helped to establish our judicial independence, but within the 
framework of the guidelines that are set by the Congress and by 
the executive.
    Again, as the others, if I am fortunate enough to be 
confirmed by the U.S. Senate to sit on the Western District of 
Michigan, I will do my very best to remain within those 
confines.
    Senator Brownback. Judge Southwick?
    Judge Southwick. Senator, it is hard for me to come up with 
something fresh after such comprehensive review of the issue by 
my three colleagues today. I would say, from my perspective as 
an appellate judge over the last nearly 12 years, where courts 
go astray is in failing to decide the case in front of them, 
trying to use it as vehicles to go elsewhere, maybe further 
than they need to go, not to decide the case purely on the 
facts as honestly understood, and interpretation of the law as 
written in the precedents; like cases are supposed to be 
decided alike.
    I think an honest interpretation of facts and law is one of 
the primary restraints. To use Judge Neff's term, the 
intellectual honesty of the exercise is absolutely critical for 
judges to keep within the bounds that they are supposed to stay 
in any particular case.
    Senator Brownback. Three of you have served as State 
judges, a court with general jurisdiction, and now you go to a 
court of limited jurisdiction. Have you, at any time, wondered 
when you have watched Federal judges rule, saying, I do not 
think that one belongs to you guys?
    Jude Neff. Well, if you will let me speak to that, Senator.
    Senator Brownback. I would be happy to. I have got to think 
you sat there in your chamber at some time and said, now, I do 
not think you guys ought to be chewing on that one.
    Jude Neff. One of the watch words in my chambers, and one 
of the first things I talked to my new law clerks about, is we 
are not ever going to decide anything other than what is 
directly in front of us. I think that is even more important on 
the Federal bench.
    You have to make sure, first of all, that the parties in 
front of you have standing, second, that the court has 
jurisdiction, and that it is a proper topic to be justified to 
be there.
    The narrower you can be as a judge, the more constrained 
you can keep your decisionmaking, in my view, the better off 
you are in the long run. It gets you in a lot less trouble 
eventually.
    Senator Brownback. Judge Maloney?
    Jude Maloney. Senator, I would concur with Judge Neff's 
comments. I cannot say that I have speculated about why a 
particular Federal court was handling a case as opposed to a 
State court, but I think the jurisdiction of the Federal court 
is fairly well delineated.
    As Judge Neff has indicated, if I am confirmed, I will make 
sure that the appropriate jurisdictional bases are there before 
the case is decided. The parties need to have standing. Case in 
controversy requirements need to be met as well. So, I will be 
very careful on that subject matter if I am confirmed by the 
Senate.
    Senator Brownback. It strikes me, in the last campaign, I 
was up for reelection in 2004. One of the big issues were the 
courts and people feeling like things were being decided by the 
courts that the people ought to decide through their 
legislative bodies. Now, I happen to have a preference for 
legislative bodies deciding things, and I recognize there are 
pressure back and forth.
    Although, through a lot of our history there has always 
been the push for authority that has been through the executive 
and legislative branch. That is usually what historians 
chronicle, is, well, the President was more powerful in this 
period of time and less powerful in that. Now I think 
historians would have to look at this period of time and ask 
about the power of the court. At least, that is what the people 
are feeling.
    That is why judges, it seems like, become a lot more of a 
hot political topic, because people look at it and say there 
are things being decided there that I think ought to be decided 
by the people, and the court moves in and says it is a 
constitutional issue, and therefore you cannot deal with it 
unless you amend the Constitution.
    That has really stirred a big movement across the country. 
I just point it out to you because I think each of you could 
well serve on a Federal bench for a number of years, and I hope 
you do. I think each of you will do an outstanding job. It does 
strike me that this is going on.
    I appreciate, Judge Neff, your comments that this is a 
healthy thing. I begin to wonder after a while when it becomes 
so much, that then you get legislative bodies saying, how do we 
limit the jurisdiction of the Federal court? Let us remove this 
jurisdiction under the authority that we have in the Congress.
    I personally do not like that tool. That, to me, is a blunt 
instrument approach tool. It would be much better if there were 
judicial restraint, that you could just say, no, I trust the 
judges, that they will decide the issues that they should 
rather than us removing appellate court review in the 
Congressional bodies.
    I hope this is one that we can all, through a lengthy 
dialog and discussion, each looking at our own roles, be one 
that we work through over a period of time in a healthy fashion 
for the good of the Republic. I think it is a very important 
one, and certainly a key one for our times now.
    I have got to ask you, Judge Southwick, this Presidential 
Also-Rans, for anybody in the U.S. Senate, that is always 
considered a great topic. What is the key to being an also-ran? 
Is it just that you had this interest in people that also ran, 
but did not win?
    Judge Southwick. Well, I have never had anybody, to my 
face, psychoanalyze what it means to have written a book about 
Presidential losers, and I do not know if anybody is reflecting 
on what that might mean in here right now. There seemed to be a 
niche there. I was interested.
    Perhaps the idea of looking at what might have been 
intrigued my fancy. So it is a book on the losing major party 
nominees for 200-plus years. What makes an also- ran is also 
what makes a President, just not quite as much, I suppose. They 
have risen to the penultimate level of American politics, but 
could not quite get across the finish line ahead of somebody 
else. So, I consider it an honorable category of individuals.
    Senator Brownback. So is it a book of ideas or is it a book 
of failed campaigns?
    Judge Southwick. It is biographies of the losing major 
party nominees. There may be some ideas in there, but I do not 
particularly analyze why they lost. I just try to suggest who 
they were in biographical form.
    Senator Brownback. That is an interesting topic.
    Judge Southwick. Well, I did have my concern when Senator 
Cochran mentioned that in here, about what that might engender.
     [Laughter.]
    Senator Brownback. Well, there is a caucus in the U.S. 
Senate of people who swear that they never want to run for 
President. I understand there are only two members.
     [Laughter.]
    So, there are a lot of others that say, well, all right, 
maybe this year.
    We are pleased to have you all here. In the process, 
hopefully we will move your nominations going forward. I 
appreciate your attendance and appreciate your willingness to 
answer questions. There may be written questions submitted to 
the record, and if so, those will be sent to you directly as 
well.
    I wish you all godspeed in moving forward. This is an 
important position. To be a judge is a key position, and three 
of you are currently serving in that. This is something that 
society looks up to. People can be mad at a judge or concerned, 
but this is a position of honor and authority, so we want to 
make sure that we have people who have the highest intellectual 
capacity and good hearts, too, so that they can process and 
analyze the case, but also that they have that heart that looks 
at it and has wisdom along with the knowledge to be able to 
apply that. And it is key. It is a key spot. So, I wish you all 
the best.
    I do have a statement to put into the record for Senator 
Leahy, who unfortunately could not be here.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Senator Brownback. As I said, the record will remain open 
for the requisite number of days. You may have written 
questions submitted to you.
    With that, thank you all for coming.
    [Whereupon, at 3:42 p.m. the hearing was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 34698.426

[GRAPHIC] [TIFF OMITTED] 34698.427

[GRAPHIC] [TIFF OMITTED] 34698.428

[GRAPHIC] [TIFF OMITTED] 34698.429

[GRAPHIC] [TIFF OMITTED] 34698.430

[GRAPHIC] [TIFF OMITTED] 34698.431

[GRAPHIC] [TIFF OMITTED] 34698.432

[GRAPHIC] [TIFF OMITTED] 34698.433

[GRAPHIC] [TIFF OMITTED] 34698.434

[GRAPHIC] [TIFF OMITTED] 34698.435

[GRAPHIC] [TIFF OMITTED] 34698.436

[GRAPHIC] [TIFF OMITTED] 34698.437

[GRAPHIC] [TIFF OMITTED] 34698.438

[GRAPHIC] [TIFF OMITTED] 34698.439

[GRAPHIC] [TIFF OMITTED] 34698.440

[GRAPHIC] [TIFF OMITTED] 34698.441

[GRAPHIC] [TIFF OMITTED] 34698.442

[GRAPHIC] [TIFF OMITTED] 34698.443



NOMINATION OF THOMAS MICHAEL HARDIMAN, NOMINEE TO BE CIRCUIT JUDGE FOR 
                           THE THIRD CIRCUIT

                              ----------                              


                       TUESDAY, NOVEMBER 14, 2006

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 2:01 p.m., in 
room 226, Dirksen Senate Office Building, Hon. Arlen Specter 
(chairman of the committee) presiding.
    Also present: Senator Coburn, Santorum.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Good afternoon, ladies and gentlemen. It 
is 2, and we have made it a practice on the Judiciary Committee 
to start our hearings precisely on time.
    Our nominee today is Thomas Michael Hardiman, a U.S. 
district Judge for the Western District of Pennsylvania, whose 
name has been submitted by the President to be on the Court of 
Appeals for the Third Circuit.
    Mr. Hardiman comes to this position with an outstanding 
record, a very young man, at 41, to have already been a Federal 
judge. He is a graduate of Notre Dame in 1987, was a Notre Dame 
Scholar.
    He went to Georgetown University Law Center in 1990, and 
was associate editor and Note and Comment editor of the 
Georgetown Law Journal, which is a mark of academic distinction 
in law school.
    He was an associate at Skadden, Arps for 2 years. His 
leaving that firm was a sign of real dedication to something 
other than making money, because that is a firm which has long 
hours and large compensation.
    Then he was an associate at Titus & McConomy, a partner in 
Reed Smith, and, since 2003, a judge on the U.S. district court 
for the Western District of Pennsylvania.
    Judge Hardiman has very, very extensive professional and 
community activities. He was a delegate to the American Bar 
Association House of Delegates, a Fellow of the Academy of 
Trial Lawyers of Allegheny County, a Hearing Officer for the 
Disciplinary Board of the Pennsylvania Supreme Court, a member 
of the Federalist Society. They are having their annual dinner 
on Thursday. He has a very, very fine record.
    Judge Hardiman, if you would step forward. We have been 
joined by Senator Santorum, a distinguished Senator from 
Pennsylvania, who is completing is second term, was in the 
House of Representatives for 4 years, and has a phenomenal 
record. He is a little older than you, Judge Hardiman, but not 
much. Senator Santorum is 48. You two young men have 
accomplished a great deal before the big 5-0.
    Senator Santorum, it is a pleasure to have you before the 
Judiciary Committee.
    Senator Santorum. Thank you, Mr. Chairman.
    Chairman Specter. You are recognized.

PRESENTATION OF THOMAS MICHAEL HARDIMAN, NOMINEE TO BE CIRCUIT 
  JUDGE FOR THE THIRD CIRCUIT, BY HON. RICK SANTORUM, A U.S. 
             SENATOR FROM THE STATE OF PENNSYLVANIA

    Senator Santorum. I got here just in the nick of time. I 
should know better that you start your meetings on time. I 
apologize.
    It is an honor to be here to appear again before my 
colleague, Senator Specter, the great Chairman of this 
committee, and in particular to be here to introduce to the 
Committee someone who I have known for many, many years, 
someone who I have tremendous respect for, for his wife, for 
his family, his extended family. It is a great family in 
western Pennsylvania. He has provided tremendous service to the 
people of western Pennsylvania, as has his family.
    It is great to be here with them to testify here in this 
hearing before the committee. Judge Hardiman is someone who I 
had the pleasure of introducing when he was up for the district 
court.
    I said at that time that he was a young man with tremendous 
potential, and someone who had tremendous respect from the Bar 
in western Pennsylvania, and that he would be an outstanding 
judge in spite of his youth.
    I took that as someone who got involved in loftier offices 
at a young age that Judge Hardiman had a better temperament 
than I did when I was at his age to prepare himself for this 
job, and in fact, he has shown that. He truly has been an 
outstanding judge. I can tell you that I get--as I know, 
Senator Specter, you do--compliments for the people that we 
have nominated to the bench.
    I cannot think of any judge that I have gotten more 
compliments about, from not just litigants, but from fellow 
jurists, fellow judges, than I have from Judge Hardiman. So I 
am ecstatic to be here today to recommend him to the committee.
    He is someone who has earned the respect of his peers, 
earned the respect of the entire bar in western Pennsylvania, 
and I know that, at least from the correspondence that we have 
received, he is someone who is universally supported for this 
position. So it is an honor for me to be here to put his name 
forward and to introduce him.
    I assume, Senator Specter, even though I am sorry I missed 
your introduction, you usually go through all of the academic 
record, so I will not go through that again.
    But Tom and Lori are great citizens. Lori's parents, who I 
know are here, and the Zappala family, which is a great western 
Pennsylvania family, is here also. They represent, really, the 
best that western Pennsylvania has to offer. So, it is a 
pleasure to be here to recommend him to the committee.
    Chairman Specter. Well, thank you very much, Senator 
Santorum, for those words of support and for all you have done 
in the nominating process. You and I have a Commission which 
screens for the district court, and you and I have had a voice 
in the submission of Judge Hardiman's name to the President, 
and the President has agreed with us on this occasion, which is 
a great tribute to Judge Hardiman. Thank you very much.
    While you are standing, Judge Hardiman, if you would raise 
your right hand to take the oath before the committee.
    [Whereupon, Judge Hardiman was duly sworn.]
    Chairman Specter. You may be seated. Let us begin by having 
you introduce your family formally for the record.

  STATEMENT OF THOMAS MICHAEL HARDIMAN, NOMINEE TO BE CIRCUIT 
                  JUDGE FOR THE THIRD CIRCUIT

    Judge Hardiman. Thank you, Senator Specter. With me today 
is my wife, Lori, our children, Kate Josephine, Matthew Robert, 
Ann Marissa Frances.
    I am also privileged to have my parents, Robert and Judith 
Hardiman, and also my in-laws, Richard and Nancy Zappala, and 
my sister-in-law, Jordan, who is a resident of Washington.
    In addition, friends from Bethesda, Maryland, Dr. Frank and 
Carol Bergin, originally from my hometown of Waltham, 
Massachusetts, and my dear friend from Skadden, Arps, Alan 
Swirski and his wife are with us today.
    [The biographical information of Judge Hardiman follows:]
    [GRAPHIC] [TIFF OMITTED] 34698.444
    
    [GRAPHIC] [TIFF OMITTED] 34698.445
    
    [GRAPHIC] [TIFF OMITTED] 34698.446
    
    [GRAPHIC] [TIFF OMITTED] 34698.447
    
    [GRAPHIC] [TIFF OMITTED] 34698.448
    
    [GRAPHIC] [TIFF OMITTED] 34698.449
    
    [GRAPHIC] [TIFF OMITTED] 34698.450
    
    [GRAPHIC] [TIFF OMITTED] 34698.451
    
    [GRAPHIC] [TIFF OMITTED] 34698.452
    
    [GRAPHIC] [TIFF OMITTED] 34698.453
    
    [GRAPHIC] [TIFF OMITTED] 34698.454
    
    [GRAPHIC] [TIFF OMITTED] 34698.455
    
    [GRAPHIC] [TIFF OMITTED] 34698.456
    
    [GRAPHIC] [TIFF OMITTED] 34698.457
    
    [GRAPHIC] [TIFF OMITTED] 34698.458
    
    [GRAPHIC] [TIFF OMITTED] 34698.459
    
    [GRAPHIC] [TIFF OMITTED] 34698.460
    
    [GRAPHIC] [TIFF OMITTED] 34698.461
    
    [GRAPHIC] [TIFF OMITTED] 34698.462
    
    [GRAPHIC] [TIFF OMITTED] 34698.463
    
    [GRAPHIC] [TIFF OMITTED] 34698.464
    
    [GRAPHIC] [TIFF OMITTED] 34698.465
    
    [GRAPHIC] [TIFF OMITTED] 34698.466
    
    [GRAPHIC] [TIFF OMITTED] 34698.467
    
    [GRAPHIC] [TIFF OMITTED] 34698.468
    
    [GRAPHIC] [TIFF OMITTED] 34698.469
    
    [GRAPHIC] [TIFF OMITTED] 34698.470
    
    [GRAPHIC] [TIFF OMITTED] 34698.471
    
    [GRAPHIC] [TIFF OMITTED] 34698.472
    
    [GRAPHIC] [TIFF OMITTED] 34698.473
    
    [GRAPHIC] [TIFF OMITTED] 34698.474
    
    [GRAPHIC] [TIFF OMITTED] 34698.475
    
    [GRAPHIC] [TIFF OMITTED] 34698.476
    
    [GRAPHIC] [TIFF OMITTED] 34698.477
    
    [GRAPHIC] [TIFF OMITTED] 34698.478
    
    [GRAPHIC] [TIFF OMITTED] 34698.479
    
    [GRAPHIC] [TIFF OMITTED] 34698.480
    
    [GRAPHIC] [TIFF OMITTED] 34698.481
    
    [GRAPHIC] [TIFF OMITTED] 34698.482
    
    [GRAPHIC] [TIFF OMITTED] 34698.483
    
    [GRAPHIC] [TIFF OMITTED] 34698.484
    
    [GRAPHIC] [TIFF OMITTED] 34698.485
    
    [GRAPHIC] [TIFF OMITTED] 34698.486
    
    [GRAPHIC] [TIFF OMITTED] 34698.487
    
    [GRAPHIC] [TIFF OMITTED] 34698.488
    
    [GRAPHIC] [TIFF OMITTED] 34698.489
    
    [GRAPHIC] [TIFF OMITTED] 34698.490
    
    Chairman Specter. Judge Hardiman, I begin by repeating a 
statement that I first heard 24 years ago from Senator 
Thurmond. The occasion was the hearing for Judge Manisman, who 
was up for district court, and in the Middle District, Judge 
Caldwell.
    Senator Thurmond asked them in his inimitable Southern 
drawl, ``If you are confirmed, do you promise to be 
cuhrteous?'' Translated into English, that is, ``If you are 
confirmed, do you promise to be courteous?''
    Not surprisingly, Judge Manisman said yes, and Judge 
Caldwell said yes. Then Senator Thurmond said, ``Because the 
more pohwer a person has, the more cuhrteous a person should 
be.'' ``The more power a person has, the more courteous a 
person should be.''
    While I had initially thought that it was a question which 
had no significance because the nominee was bound to say that 
he/she promised to be courteous, but I have since come to think 
that it is a very profound question and a very significant 
answer.
    Many nominees over the years--and when Senator Thurmond is 
not here--and he is not here. Senator Thurmond was 100 on 
December 2, 2002, and he served until January 3 of 2003, and 
was over 100 years old when he left the U.S. Senate and passed 
about 6 months thereafter. But whenever he is not here, I bring 
Thurmond's views to mind.
    Many nominees have told me years after the fact that they 
thought about what Senator Thurmond had said. Because when you 
put on a black robe, especially a Federal black robe and you 
have life tenure, sometimes even a judge gets up on the wrong 
side of the bed and sometimes might not be as considerate or as 
thoughtful, and might find people not as well prepared as he or 
she thought, or not as direct. But that is a very wise thing to 
recall, so I take a few moments here today to repeat it to you.
    Judge Hardiman, the basic question which is addressed to 
all nominees is a commitment to interpret the law and not to 
make the law. Tell me what you think about that general 
proposition.
    Judge Hardiman. Thank you for that question, Senator. It is 
very important to tell you that, as a district judge, I view my 
role quite differently than the role of legislators, whether 
they be Representatives or Senators.
    In the legislative branch, you make the laws. They are 
placed into the U.S. Code, as you know, and our role as judges 
is to interpret the law, not to inject our own policy 
preferences. So, our task is to give an honest construction to 
what laws are passed by the legislature.
    Chairman Specter. Can you illustrate the application of 
this principle in any cases which have come before you on the 
district court?
    Judge Hardiman. Well, yes, I can, Senator. In some cases it 
is a rather straightforward application. It may be something as 
basic as applying Section 1988 in the Civil Rights arena when a 
prevailing party in a Section 1983 action, after the case it 
over and they have prevailed, then it is the judge's duty to 
award attorneys' fees to that prevailing plaintiff, pursuant to 
Section 1988 of the Act.
    In other instances, the statute may not be as direct or 
clear, but it is our role to read the statute as passed by 
Congress, signed into law by the President, and to interpret 
that law honestly and fairly.
    Chairman Specter. Do you find any problem, Judge Hardiman, 
in applying a principle of law, even though you may have very 
profound differences with the rule that has been articulated by 
the higher courts?
    Judge Hardiman. Thank you, Senator, for asking about that. 
Not at all. I have no hesitation in applying a law, regardless 
of what I might think about it. I think any good judge 
recognizes his or her place in our constitutional government, 
and that place is not to upset the will of the people as 
expressed through their elected representatives. So, I do not 
have any compunction about following the law as written by 
Congress.
    Chairman Specter. Can you think of any issue which has come 
before you where you had an intuitive reaction that was adverse 
to the ruling that you felt you were required to make?
    Judge Hardiman. I cannot say that I have, Senator. Quite 
honestly, we get one new civil case every business day of the 
year. We spend so much of our time reading the law and 
interpreting the law, that that does not leave much time for 
consideration of whether the law is prudent or might be written 
in a better way.
    I spend all of my time, with the assistance of my law 
clerks, trying to read the law and interpret it and apply it to 
the facts presented in any particular case. So I cannot say 
that I have spent much time at all considering the propriety of 
the laws that I have had occasion to interpret.
    Chairman Specter. Judge Hardiman, you have ethical issues 
which come before you. Did your service on the Disciplinary 
Board of the Pennsylvania Supreme Court give you any special 
insights into those issues?
    Judge Hardiman. Thank you for asking about my service on 
the Disciplinary Board, Senator. I viewed that as a very 
valuable exercise. We adjudicated cases of lawyers who had done 
terrible things, or at least had been accused of doing terrible 
things, by their clients.
    It was a real eye-opener because, in a very real sense, 
those of us who worked on the Disciplinary Board Hearing 
Committee saw the under-belly of the legal system that was very 
difficult. It has helped me keep in mind all times that not all 
lawyers always work in the best interests of their clients. It 
is a very delicate situation.
    If a lawyer does not appear to the judge to be working in 
the best interest of the clients, I think the way to deal with 
that is to have hearings on the record and hope that the 
parties might appear.
    Sometimes from the bench, or sometimes in a conference on 
the record, the court is in a position to give guidance that 
not only is for the ears of the attorney, but may also be for 
the ears of the litigant, him or herself.
    Chairman Specter. With respect to case management, I have 
seen matters which are dragged out in a very protracted way in 
a court where the judge who is assigned to the case simply lets 
events occur, with voluminous discovery, without focusing on 
the issue, without narrowing what has to be done, at enormous 
cost to both parties.
    Now, if there is a contested issue of fact, or if 
depositions are necessary, or if discovery has to take place, 
that is what the judge should permit. But I believe it is 
really an oversight in many, many cases of the judges not 
spending the time on case management to see to it that the 
matter is focused and resolved at an early stage, either one 
way or another.
    Have you had experience on the application of case 
management principles to economize on the time of the 
litigants, the time of the court, and the expense of the 
litigants in maneuvering and pushing through a case?
    Judge Hardiman. Yes, I have, Senator. Thank you for the 
opportunity to talk about case management. It is very, very 
important, in my view, that judges are proactive in managing 
their caseloads. I agree with you wholeheartedly that the 
litigants should not have to waste time and money to have their 
day in court. We try very hard in our district, and I 
personally, along with my colleagues, try to get cases to trial 
within 12 months.
    Certainly you have to be considerate of the particular 
case. Some complex litigation in the intellectual property 
field or other cases involving voluminous documents might take 
longer. I am certainly willing, and have granted extensions of 
time when good cause is shown, but I think it is important to 
move the case along.
    We have also instituted a pilot alternative dispute 
resolution program in our court specifically to deal with that 
issue. I don't know if you want me to go into that program, but 
that's an important initiative that Chief Judge Ambrose has 
started, and I am co-chairing that initiative, to address the 
concern that you have raised.
    Chairman Specter. Are you sure you want to be an appellate 
judge? On the trial court, you have lots of action, see lots of 
lawyers, see lots of witnesses, see lots of people.
    On the appellate court, you will be cloistered. You will 
have all those lengthy, scintillating, exciting briefs to read 
for not only decisionmaking, but entertainment.
    Are you not a little young to be an appellate judge? I 
asked you this question when you wanted to be a district court 
judge, if you were not young to be a district court judge so I 
know you would have been disappointed not to have this 
question.
    Judge Hardiman. Thank you for that question, Senator. 
First, let me state that I thoroughly enjoy my work on the 
district court. I enjoy my colleagues. Chief Judge Ambrose has 
been an extraordinary colleague and leader on our court. The 
other colleagues have been wonderful. So I am grateful for the 
opportunity that this Committee gave me, and the full Senate 
gave me, to serve as a district judge.
    I do, however, wish to become a circuit judge. I think it 
would be an extraordinary opportunity to not only have 
colleagues and the collegiality that I share on the district 
court, but deciding cases with colleagues is an enterprise that 
appeals to me tremendously.
    I have had an opportunity to meet many of the judges on the 
Court of Appeals. They are extraordinarily bright, talented 
people. I would learn a great deal from them and I would hope 
to contribute a great deal to the decisions of that court as a 
colleague that they would like to work with. So, that would be 
my goal.
    You served on the Governors' Judicial Advisory Commission, 
in which capacity you evaluated and recommended potential 
judicial candidates to the Governor. Did that not whet your 
appetite to be an appointor, like the Governor, or perhaps an 
appointor, like the President, or perhaps recommender like 
Senator Santorum or Arlen Specter?
    Judge Hardiman. Senator, thank you for asking about that.
    Chairman Specter. Stated differently, are you going to stay 
on the bench or are you going to run for political office, 
Judge Hardiman?
    Judge Hardiman. Well, with all due respect, Senator, I hold 
you and your colleagues in the legislative branch and the 
executive branch in the highest esteem. I recognize the--
    Chairman Specter. No plan to run against me in 2008?
    [Laughter.]
    How about for Governor in 2010? Or how about for President 
in 2008, something more immediate?
    Judge Hardiman. I feel that I have found my home in the 
judiciary, with all candor, Senator.
    Chairman Specter. You have been actively engaged in the Big 
Brothers Big Sisters program for many years. What would you say 
to people to try to encourage more to join those organizations, 
to try to mentor the so-called at-risk young people?
    Judge Hardiman. I would tell them, Senator, to give it a 
try. I think the hardest challenge we face in recruiting Bigs 
is to get them to take the first step, to come into the agency 
and to fill out the application.
    Once the prospective Bigs meet the Littles, then there is 
tremendous desire on the part of the Bigs to serve. In my 
personal case, I had worked in the corporate capacity on the 
Board of Directors and had served as president, but I wanted to 
get involved with a Little.
    But as a husband and a father of three children, I wasn't 
convinced that I had the time to do that. So we started a 
school-based mentoring program, and that is where I met my 
little brother, Saddiq. It was a 1-hour commitment a week, and 
I knew I could give 1 hour a week to a fourth grader. What I 
did not think I could do, was give more of my time.
    As it turned out, Saddiq and I became such great friends 
that we converted our match out of the school-based program and 
now we are part of the traditional program so we can spend 
entire days together, or entire afternoons together. So, my 
hope would be that other busy people might take that first step 
and they would see what kind of experience they might have.
    Chairman Specter. Is it possible for you to maintain any of 
those activities while serving on the Federal bench?
    Judge Hardiman. Yes, certainly it is, Senator. My 
relationship with Saddiq has continued to grow. He is now a 
freshman.
    Chairman Specter. So you are still working with Big 
Brothers Big Sisters?
    Judge Hardiman. Yes. I cannot raise money. I used to do a 
lot of fundraising for that organization. I am not able to 
raise money.
    Chairman Specter. I am sure you are sorry not to be able to 
do that, are you not?
    [Laughter.]
    Judge Hardiman. I have redirected my efforts in ways more 
important than the financial, I would like to think, Senator.
    Chairman Specter. When I talked to you about running for 
office, Judge Manisman was on the State Supreme Court and ran 
for the U.S. Senate in 1964. That was the last time that has 
been done. He lost in the primary to Genevieve Blad, and he was 
able to stay on the bench. You could not do that as a Federal 
judge.
    Judge Hardiman. No.
    Chairman Specter. I do not even know that you could do that 
as a State Supreme Court justice any more.
    When Chief Justice Roberts was up for his confirmation, I 
asked him how he thought, at the age of 50, he would be able to 
handle Justice Stevens, who was 85, 35 years his senior, or 
Justice Scalia, who was 68 and having some very strongly held 
views.
    He responded by saying that he had appeared 39 times before 
the Supreme Court of the United States, and when he appeared in 
court to present his case it was a ``dialog among equals''.
    So I asked Ken Starr, who had been Solicitor General, what 
he thought of Roberts' answer about a ``dialog among equals''. 
He said he thought it was exactly wrong. I asked Ken Olson what 
he thought about the dialog among equals. He agreed with Ken 
Starr. Olson had been Solicitor General as well.
    I appeared three times before the Supreme Court. At the 
podium with the justices, it did not seem to me it was a dialog 
among equals either. But I reflect upon how Judge Edward Becker 
handled his courtroom, really one of the greatest jurists of 
all time, a recipient of the Davit Award; among some 900 
Federal judges, he was the Outstanding Federal Judge.
    Judge Becker conducted his courtroom almost as a dialog 
among equals. He had a really excellent way of dealing with his 
clerks when he would say that in their association he wanted no 
deference. No defence. He wanted the clerks to tell him exactly 
what they thought. That is the way he thought he would get the 
best work done.
    An argument to encourage that kind of total openness has 
great merit, so I am not going to ask you whether you agree 
with Chief Justice Roberts. He may know whatever your answer 
would be and he may have some occasion to review some of your 
work some day, but I would commend to you his approach to oral 
argument, his approach to involvement of the advocates and 
lawyers who appear before him, as did Judge Becker.
    Judge Becker's stopwatch did not work. When he was in the 
middle of an argument, he went on and on if he thought he was 
moving in a direction of greater understanding of the case.
    Chief Justice Rehnquist was the opposite. When I argued the 
Navy Yard case in 1994, the first sitting Senator to do that 
since the 1920s, he cut me off in mid-sentence. I was later 
told that he was rather lenient because he had been looking for 
an opportunity to interrupt a lawyer in the middle of the word 
``if''.
    When he presided on the impeachment proceeding of President 
Clinton--and I apologize not only to you, but all the judges in 
the impeachment proceedings--he did not cut me off. We had 15 
minutes for closing arguments. It was curious. It was a session 
not open to the public. All the rest of it was televised.
    When we got to the important part where the Senators spoke 
about how they were going to decide the matter, there was a 
closed session. But I give you that little insight into Judge 
Becker, who I think would be a good model.
    Without objection, I am going to introduce the statement of 
Senator Leahy, our distinguished Ranking Member, and in 
conclusion ask if you have anything you would like to add.
    Judge Hardiman. Only to thank you, Senators, for scheduling 
this hearing. I want to thank the President for the nomination, 
and thank you for those words of advice regarding Judge Becker.
    I, like Judge Becker, have scheduled many arguments on 
motions for 15 minutes a side, and an hour and 10 minutes later 
we are still hearing argument. So, I take to heart your advice 
in that regard. The late, great Judge Becker is certainly a 
role model for all of us coming behind him.
    Chairman Specter. Well, you are being considered for a 
court of the highest caliber, some great judges. I think Judge 
Biggs was a judge on the Third Circuit even younger than you. I 
think he was 37. Judge Hasty, the first African-American judge 
to serve on the Federal Court of Appeals. Judge Maris. I do not 
mean to leave anybody out, but there are really some 
extraordinary jurists.
    That concludes our hearing.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    [Questions and answers and a submission for the record 
follow.] 
[GRAPHIC] [TIFF OMITTED] 34698.491

[GRAPHIC] [TIFF OMITTED] 34698.492

[GRAPHIC] [TIFF OMITTED] 34698.493

[GRAPHIC] [TIFF OMITTED] 34698.494

[GRAPHIC] [TIFF OMITTED] 34698.495

[GRAPHIC] [TIFF OMITTED] 34698.496

[GRAPHIC] [TIFF OMITTED] 34698.497

[GRAPHIC] [TIFF OMITTED] 34698.498

[GRAPHIC] [TIFF OMITTED] 34698.499

[GRAPHIC] [TIFF OMITTED] 34698.500

[GRAPHIC] [TIFF OMITTED] 34698.501

                                 <all>

</pre></body></html>
